<html>
<title> - FOOD SAFETY AND SECURITY: CAN OUR FRACTURED FOOD SAFETY SYSTEM RISE TO THE CHALLENGE?</title>
<body><pre>[Senate Hearing 107-210]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-210
 
FOOD SAFETY AND SECURITY: CAN OUR FRACTURED FOOD SAFETY SYSTEM RISE TO 
                             THE CHALLENGE?
=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
              RESTRUCTURING, AND THE DISTRICT OF COLUMBIA
                              SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2001

                               __________




      Printed for the use of the Committee on Governmental Affairs




                        U.S. GOVERNMENT PRINTING OFFICE
76-804                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
         Hannah S. Sistare, Minority Staff Director and Counsel
                     Darla D. Cassell, Chief Clerk

                                 ------                                

SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING, AND 
                        THE DISTRICT OF COLUMBIA

                 RICHARD J. DURBIN, Illinois, Chairman
DANIEL K. AKAKA, Hawaii              GEORGE V. VOINOVICH, Ohio
ROBERT G. TORRICELLI, New Jersey     TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           SUSAN M. COLLINS, Maine
JEAN CARNAHAN, Missouri              PETE V. DOMENICI, New Mexico
MARK DAYTON, Minnesota               THAD COCHRAN, Mississippi
       Marianne Clifford Upton, Staff Director and Chief Counsel
               Andrew Richardson, Minority Staff Director
                     Julie L. Vincent, Chief Clerk





                            C O N T E N T S

                                 ------                                
                                                                   Page
Opening statements:
    Senator Durbin...............................................     1
    Senator Voinovich............................................    23

                               WITNESSES
                      Wednesday, October 10, 2001

Robert A. Robinson, Managing Director, accompanied by Keith W. 
  Oleson, Assistant Director, Natural Resources and the 
  Environment, U.S. General Accounting Office....................     4
Hon. Rose L. DeLauro, a Representative in Congress from the State 
  of Connecticut.................................................     7
Hon. Elsa Murano, Ph.D., Under Secretary of Agriculture for Food 
  Safety, U.S. Department of Agriculture.........................    10
Bernard Schwetz, Ph.D., D.V.M., Acting Principal Deputy 
  Commissioner, Food and Drug Administration, U.S. Department of 
  Health and Human Services, accompanied by Joseph A. Levitt, 
  Director, Center for Food Safety and Applied Nutrition, Food 
  and Drug Administration, U.S. Department of Health and Human 
  Services.......................................................    13
Hon. Dan Glickman, Akin, Gump, Strauss, Hauer & Feld, L.L.P., 
  former Secretary of Agriculture, U.S. Department of Agriculture    15
Michael F. Jacobson, Ph.D., Executive Director, Center for 
  Science in the Public Interest.................................    27
John Cady, President and Chief Executive Officer, National Food 
  Processors Association.........................................    28
Peter Chalk, Ph.D., Policy Analyst, RAND Corporation.............    30
C. Manly Molpus, President and Chief Executive Officer, Grocery 
  Manufacturers of America.......................................    31
Tim Hammonds, President and Chief Executive Officer, Food 
  Marketing Institute............................................    33

                     Alphabetical List of Witnesses

Cady, John:
    Testimony....................................................    28
    Prepared statement...........................................   108
Chalk, Peter, Ph.D.:
    Testimony....................................................    30
    Prepared statement...........................................   113
DeLauro, Hon. Rose L:
    Testimony....................................................     7
    Prepared statement...........................................    66
Glickman, Hon. Dan:
    Testimony....................................................    15
    Prepared statement...........................................    94
Hammonds, Tim:
    Testimony....................................................    33
    Prepared statement with an attachment........................   138
Jacobson, Michael F., Ph.D.:
    Testimony....................................................    27
    Prepared statement...........................................   100
Molpus, C. Manly:
    Testimony....................................................    31
    Prepared statement...........................................   127
Murano, Hon. Elsa, Ph.D.:
    Testimony....................................................    10
    Prepared statement...........................................    68
Robinson, Robert A.:
    Testimony....................................................     4
    Prepared statement...........................................    45
Schwetz, Bernard, Ph.D., D.V.M.:
    Testimony....................................................    13
    Prepared statement...........................................    74

                                APPENDIX

United Food and Commercial Workers International Union (UFCW), 
  prepared statement.............................................   149







FOOD SAFETY AND SECURITY: CAN OUR FRACTURED FOOD SAFETY SYSTEM RISE TO 
                             THE CHALLENGE?

                              ----------                              


                      WEDNESDAY, OCTOBER 10, 2001

                                     U.S. Senate,  
                    Oversight of Government Management,    
             Restructuring, and the District of Columbia,  
                  of the Committee on Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Richard 
Durbin, Chairman of the Subcommittee, presiding.
    Present: Senators Durbin and Voinovich.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. This hearing will come to order. I thank 
you all for coming today to discuss issues of food safety and 
security. Some of my colleagues are running a little bit late. 
This has been an unusual morning because we had a memorial 
service for Senator Mike Mansfield. Most of us have just gotten 
off the buses and many of my colleagues had to quickly return 
to their offices. They will be joining us in a few minutes. 
They are running a little bit late, but I thank you all for 
coming today.
    The hearing will come to order and good afternoon. I am 
pleased to welcome you to this hearing of the Senate 
Subcommittee on the Oversight of Government Management. We are 
going to focus on food safety and security and the question: 
Can our fractured food safety system rise to today's challenge? 
Let me say at the outset--and will say repeatedly--we have the 
safest food supply in the world. That is something that bears 
repeating, because even though we are raising questions about 
how to improve the system, we start off with a food supply that 
is second to none. The question which we are going to be asking 
ourselves today is whether or not we can improve the system.
    For many years now, I have worked on this issue, of food 
safety focusing on questions which involve hazards in food that 
are naturally occurring that can be avoided with appropriate 
inspection and processing. In the last several weeks this 
conversation has changed. It is no longer just about food 
safety. It is about food security, and that is one of the 
aspects which we also have to take into account. That is one of 
the reasons why I wanted to bring this group together today.
    Our government structure divides responsibility for food 
safety and security between at least a dozen Federal agencies 
operating under 35 different Federal statutes. It is a system 
of divided responsibility. It is a system of rivalry, in some 
aspects, when it should be one of cooperation. It is 
duplicative, it is costly and it is unduly complicated. It is 
impossible to explain. In an age where our Nation's food supply 
is facing tremendous pressure from emerging pathogens to an 
ever-growing volume of food imports, from changing food 
consumption patterns to an aging population susceptible to 
food-related illness and even potential food security risks, we 
must have a system in place to ensure the safety of our food.
    Now is the time to fundamentally set the course for a food 
safety system that is not only more efficient and effective, 
but one based on science, with the promise of sustaining the 
confidence of the consuming public. It is time for our 
government to have a single food safety agency. I do not 
believe there is a person in this room or in this city or this 
Nation that would say to us today that if they had to invent a 
food safety system, they would invent what we have in place.
    Make no mistake, as I said, our country is blessed with 
safe and abundant food supplies, but we can do better. 
Foodborne illness is a significant problem. While food may 
never be completely free of risk, we have to strive to make our 
food as safe as possible. Americans at every level, Federal, 
State and local, industry and the consuming public, share this 
responsibility. The Center for Disease Control estimates that 
as many as 76 million Americans will suffer food poisoning this 
year. Of those individuals, 325,000 will be hospitalized, and 
more than 5,000 will die. Children and the elderly are 
especially vulnerable.
    In terms of medical costs and productivity losses, 
foodborne illnesses cost the Nation billions of dollars 
annually. The situation is not going to improve without 
decisive action. In fact, the Department of Health and Human 
Services predicts that foodborne illnesses and deaths will 
increase 10 to 15 percent over the next decade from natural 
hazards. Over the past 25 years, the GAO and other 
organizations, including the National Academy of Sciences, have 
issued report after report describing the problems with Federal 
food safety oversight and the need for a single food agency. 
These organizations have made many recommendations for change.
    I think it is time we make that fundamental lasting change 
that GAO has asked for. We need that single food agency. I 
introduced the Safe Food Act of 2001 last week. It combines the 
functions of USDA's Food Safety and Inspection Service, the 
FDA's Center for Food Safety and Applied Nutrition, FDA's 
Center for Veterinary Medicine, the Department of Commerce's 
seafood inspection program, and the food safety functions of 
several other Federal agencies. This new agency will be funded 
by the combined budgets of the consolidated agencies.
    Following the events of September 11, we are more keenly 
focused on how varied aspects of America's homeland security, 
including our Nation's food supply, may be vulnerable to 
attack. Our Federal food safety system must be able to prevent 
potential food hazards from reaching the public. We must 
establish procedures on the farm and during the various stages 
of food processing to ensure that no form of deliberate 
contamination reaches consumers. We also have to critically 
examine our import procedures to determine if they are adequate 
to protect the public from food-safety threats. A single food 
agency will help ensure that we have a cohesive process in 
place.
    Last night, I met with David Byrne, who is the Health and 
Consumer Products Commissioner for the European Union. He is a 
man I met several years ago at a St. Patrick's Day parade in 
Chicago--he reminded me of that. He is trying at this point in 
time to establish this type of agency for the European Union. 
Now is the time for us to start that dialogue with the European 
Union, to continue a dialogue that may have started before, but 
in more earnest and sincere terms. As we look around the world 
to those countries which seek to import from the United States 
and export to our country, we have to establish some 
meaningful, scientific, reasonable standards, so that we know 
the product that is moving across the border is safe for 
everyone.
    Overlapping jurisdictions of Federal agencies have really 
lessened accountability. A single agency focuses our policy and 
improves our enforcement. Let me just say that research could 
be better coordinated, as well, with a single agency. Currently 
Federal funding for food safety research is spread over more 
than a dozen different Federal agencies, and coordination is 
very limited. New technologies to improve food safety could be 
approved more rapidly with one food safety agency. Currently, 
food safety technologies must go through multiple agencies for 
approval, often adding years of delay.
    With the incidence of food recalls on the rise, it is 
important to move beyond short-term solutions. A single agency 
could more easily work toward long-term solutions. In this era 
of limited budgets, it is our responsibility to modernize and 
streamline the system. This Subcommittee has been discussing 
the weaknesses of the Federal food safety system for decades. I 
have not been here in that discussion for decades, but it has 
been going on that long. It is time to move forward. Let's stop 
discussing the need and actually make it happen. I am 
encouraging my colleagues on both sides of the aisle to help me 
to consolidate the food safety and security functions.
    At this point I was going to recognize Congresswoman Rosa 
DeLauro, who I understand is on the way and may be here 
momentarily. When she does, I am going to invite her to come up 
and speak and interrupt the panel that may be speaking at the 
time--I hope everyone will understand--because of her schedule. 
Let me at this point welcome our first panel then. Robert 
Robinson is the Managing Director of Natural Resources and 
Environment with the U.S. General Accounting Office. He is 
accompanied by Keith Oleson, who is the Assistant Director of 
GAO's Natural Resources and Environment Division. Thank you for 
being here. We look forward to your testimony. It is customary 
for the Subcommittee to swear in all of our witnesses. So, if 
you would not mind standing, do you swear that the testimony 
you are about to give is the whole truth, and nothing but the 
truth, so help you, God?
    Mr. Robinson. Yes, sir.
    Mr. Oleson. Yes, sir.
    Senator Durbin. Thank you very much. Let me note for the 
record that the witnesses answered in the affirmative. Please, 
if you could limit your oral statements so that we can follow 
up with some questions----
    Mr. Robinson.

TESTIMONY OF ROBERT ROBINSON,\1\ MANAGING DIRECTOR, ACCOMPANIED 
 BY KEITH W. OLESON, ASSISTANT DIRECTOR, NATURAL RESOURCES AND 
        THE ENVIRONMENT, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Robinson. Thank you, Mr. Chairman, for this opportunity 
to weigh in on this matter of real national importance. As you 
know and have just mentioned, GAO has long called for the 
establishment of a single food safety agency responsible for 
implementing uniform and risk-based food safety legislation. I 
am here today to renew this call.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Robinson appears in the Appendix 
on page 45.
---------------------------------------------------------------------------
    While we believe the case for such action has been 
compelling for some time, recent tragic events and the 
increased threats these actions portend for the future make the 
need for action all the more imperative. While the American 
food supply is generally safe, the 5,000 deaths and millions of 
illnesses attributed to foodborne pathogens each year provide 
ample evidence that the system needs improvement. The current 
regulatory system did not emerge from a comprehensive design, 
but rather was cobbled together piecemeal over many years. The 
patchwork that now exists hampers efforts to adequately address 
existing and emerging food safety threats, whether those risks 
involved inadvertent or deliberate contamination.
    It has also led to an inefficient and inflexible deployment 
of resources, as well as inconsistent oversight and enforcement 
of products with comparable risk. With respect to resources, 
the current deployment is not particularly rational and 
certainly is not risk-based. FSIS and USDA spends about 70 
percent of the Federal food safety regulatory dollar inspecting 
on a daily basis about 6,000 meat, poultry and egg 
establishments that collectively produce about 20 percent of 
federally-regulated foods. FDA, on the other hand, has less 
than half of FSIS's funding to oversee about 10 times more food 
production facilities and about four times more federally-
regulated foods.
    In this context, the resulting oversight of food production 
is quite inconsistent. Over the years, as I am sure you are 
aware, we have used a number of food items, including canned 
soup and frozen pizza, to put a specific face on the systems of 
irrationality. This time we will use a packaged sandwich. As 
you can see from our graphic, if you are producing a packaged 
open-faced meat or poultry sandwich, you get inspected daily by 
FSIS. If, on the other hand----
    Senator Durbin. Part of the Department of Agriculture?
    Mr. Robinson. Yes. If, on the other hand, you are producing 
a closed-face sandwich with identical ingredients, you get 
inspected by FDA on average once every 5 years.
    The current fragmented structure also has implications for 
food imports, an area of growing importance to our food supply. 
FSIS and FDA employ vastly different approaches. On the one 
hand, meat and poultry cannot be exported to the United States 
unless FSIS has determined that the exporting country has an 
equivalent food safety system. This allows FSIS to leverage its 
inspection resources. Also, until FSIS approves the release of 
imported products, they generally must be kept in a registered 
warehouse. Unlike FSIS, however, FDA does not have authority to 
require equivalency agreements and is thereby forced to rely on 
widely discredited port-of-entry inspections. Also, because FDA 
does not control imported foods prior to its approval for 
release, some adulterated imports have been released into U.S. 
commerce.
    Now, of course, overhanging these long-standing limitations 
in the current food safety system is the prospect of deliberate 
terrorist contamination. The likelihood of such an attack is 
unknown. In a recent report we identified only two acts of 
deliberate food supply contamination over the past 15 years. 
However, based on the nature of our food system and the 
weaknesses we have already identified, we believe there is 
reason to doubt our system's ability to detect and quickly 
respond to an orchestrated bioterrorist attack. The U.S. food 
distribution system moves food from production to markets in 
hours. Even if contamination was detected by the extremely 
limited testing that occurs, vast amounts could already be in 
the hands of consumers. Furthermore, even if the current 
surveillance system worked as intended, the problem would not 
be typically identified until multiple illnesses were reported.
    Our fragmented system would compound these inherent 
difficulties; for example, determining which Federal agency was 
responsible for responding could take precious time when speedy 
action would be absolutely essential. Similarly, split 
responsibility could impede timely laboratory testing and the 
ability to marshal the full range of Federal resources. Mr. 
Chairman, as you have mentioned, while no system can be 
foolproof, the fragmented system now in place is simply not 
good enough. A single food safety agency is needed now more 
than ever. In this regard, we are gratified to note that 
consolidation of food safety activities is supported by the 
National Academy of Sciences, the President's Council on Food 
Safety and a large number of former food safety officials. It 
is also consistent with the recent actions taken by a number of 
other nations, including Canada, Great Britain, Denmark, and 
Ireland.
    Before concluding, I also want to make you aware of related 
work that you may find useful. This work was performed by us in 
1998 when we issued a classified report to the full Committee 
that laid out the vulnerability of U.S. agriculture to a 
biological attack. We have updated that work and have prepared 
a classified briefing. The team is here and can present the 
information in a closed environment whenever called upon.
    Thank you.
    Senator Durbin. Thanks, Mr. Robinson, and I will take you 
up on that, which, of course, will not be today, but we will do 
it in a different setting. You made reference to U.S. 
Department of Agriculture. Our former Secretary is here and 
many of us have worked with that Department and think very 
highly of it. I have equally high regard for the Food and Drug 
Administration. Many people argue that we are dealing with two 
different cultures between these agencies, in terms of the way 
they look at their responsibility. As the GAO took a look at 
food inspection, did you note any differences in approach or 
application of science or different cultures?
    Mr. Robinson. Well, differences in approach are pretty much 
across the board, and a lot of it has to do with different 
legislative authorities and requirements. Practically on every 
front, the authorities are different and, hence, the approaches 
almost necessarily are different. You could pretty much go down 
the line and identify those differences.
    Senator Durbin. Let's get down to basics. Some argue that 
the U.S. Department of Agriculture, because it has a 
responsibility to promote the products, consumption and the 
like, is not in a good position to be a watchdog over the 
agencies and the Department--the facilities and the businesses 
that it regulates through this inspection, whereas FDA takes a 
much different approach when it comes to approvals for medical 
devices and pharmaceuticals and the like. Did you note that in 
the GAO review of this process?
    Mr. Robinson. Yes. This goes to the basic rationale that 
finally led us to conclude that an independent agency was the 
way to go. USDA fundamentally has the FAA problem. The same 
agency that is responsible for promoting the industry is also 
responsible for regulating the safety of the product, obviously 
conflicting interests. FDA, on the other hand, has a situation 
where the bulk of its resources have usually been devoted to 
the ``D'' part of the agency, leaving the ``F'' part of the 
agency in somewhat more of a stepchild environment when 
resource allocations decisions were to be made. So there is a 
fundamental----
    Senator Durbin. When I took a look at this issue to try to 
determine how we can move from where we are today to a single 
food agency, it was really tough to find a lot of parallels. 
The closest I could find was the creation of the Environmental 
Protection Agency, where we took a lot of different agencies 
and brought them together under one roof with one mission, and 
if I am not mistaken, it also involved a transition period 
before the EPA could really open its doors and get down to 
business. Do you have any thoughts on that aspect, moving from 
where we are today to a single food agency? Have you seen any 
examples in other countries where they have tried to accomplish 
this?
    Mr. Robinson. Yes, a few years ago we did joint work with 
our Canadian Office of Auditor General counterparts. We issued 
a joint report with them on food import controls, and that 
report led the Canadians to take action. They have moved pretty 
aggressively or much more aggressively than we have to 
establish a single food safety agency and although early, the 
signs seem to be positive. As I mentioned in my statement, the 
British have moved in that direction, as have other Nations and 
the EU is now considering it, as you mentioned.
    I think the arguments are so compelling--the inefficiencies 
and the gaps and the overlaps are so obvious it almost raises 
the question as to what is holding the move to rationality 
back. There seems to be growing conceptual agreement on the 
basic decision of consolidation. What remains to be worked out 
is the details.
    Senator Durbin. There are three things holding us back. I 
can tell you what they are: One is Congress, where committees 
have jurisdiction and do not want to give it up; the other 
would be the agencies currently involved that are fearful of 
losing jurisdiction; and the third are people who are 
regulated. They are fearful of change. You put those three 
together and you can explain why for 30 or 40 years this grand 
idea has gone nowhere. Maybe the events of September 11 will 
give us the impetus to change.
    One last question before I recognize my friend, 
Congresswoman DeLauro. You made a reference to the 
international aspect of this and clearly that is something we 
have to take into account, and you noted that the FDA, aside 
from random border inspection, frankly does not do much by way 
of inspecting food production overseas; is that correct?
    Mr. Robinson. Yes. I think currently it is about 1 percent 
of imports under their jurisdiction are inspected. With 
additional resources that have been requested, that percentage 
could rise a few points. But essentially you have to ask 
yourself if raising that inspection level from 1 percent to 3 
percent--it does not move you a lot further down the road; 
whereas I think leveraging resources, like FSIS is allowed to 
do, to ensure that foreign nations that will be the source of 
our food imports have installed systems comparable to ours and 
are implementing those systems based on testing, is a far more 
efficient way, and I think, ultimately much more effective and 
a more confidence-inducing way of proceeding.
    Senator Durbin. Well, I have taken a big enough task, 
dealing with trying to consolidate our domestic food safety 
inspection, but I really believe, as I said at the outset, that 
this should be discussed in a global context. As we are talking 
about our allies now who are struggling against terrorism 
worldwide, I think we can find the same type of alliances when 
it comes to food safety and security, so that trade can 
continue with peace of mind. My conversations yesterday with 
the European Union led me to believe that they are ready for 
this, as well. It not only will help us when it comes to food 
safety and security, but in trying to find some common ground 
and resolution to many other intractable food safety issues 
between the EU and the United States. I hope that will be part 
of it.
    If I could ask you and Mr. Oleson to just stay where you 
are for a moment, I am going to turn over the microphone to my 
friend, Congresswoman DeLauro, who has been a leader on this 
issue in the House. Thank you for coming.

   TESTIMONY OF HON. ROSA L. DELAURO,\1\ A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CONNECTICUT

    Ms. DeLauro. Thank you so very much, Mr. Chairman and my 
good friend. I apologize to my colleagues at the table. I will 
try to be brief. I would just like to say to my colleague, the 
Chairman, Senator Durbin, that it has been an honor and a 
pleasure to work with him. I sat on the Agricultural 
Appropriations Committee when Senator Durbin was the chair over 
there. This is an issue in which he has really taken such a 
leadership role, and I am pleased that we are going to continue 
to work on this effort, and I am grateful to hear about your 
conversations with the European Union as to what we might be 
doing with our allies overseas.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. DeLauro appears in the Appendix 
on page 66.
---------------------------------------------------------------------------
    Our Nation's food safety is of critical importance, we all 
agree with that. The Center for Disease Control and Prevention 
says that each year 76 million people get sick and 5,000 people 
die from a food-related illness. I had a personal experience 
with this problem. When I was a child I contracted Salmonella. 
I was hospitalized for almost 2 weeks. I was so young that I 
did not know why my parents had put me into this situation, 
away from them and so forth, and I am told, though I do not 
remember, that I refused to talk to them when I did get out of 
the hospital.
    The numbers are staggering nationwide, of people getting 
sick and people who are dying, and they do not include a vast 
number of unreported illnesses. The situation is not going to 
improve without some decisive action. Also, in terms of what 
happened on September 11, we need to be concerned about the 
safety of our food from a bioterrorist attack. According to 
Raymond Zilinskas, who is a senior scientist with the Monterey 
Institute of International Studies, the most likely scenario 
for a biological weapons attack would be foodborne or 
beverageborne attack, using Salmonella, Shigella, or 
Staphylococcal toxins.
    Tommy Thompson, the Secretary of Health and Human Services, 
on October 3 submitted a request to OMB for additional money 
for bioterrorism programs. In addition to other priorities, he 
identified food safety as a vital area that needs to be 
addressed. The Secretary has requested money for 200 imported 
food inspectors and 100 domestic food inspectors. I might add 
that several months ago on the debate on this year's 
agricultural appropriation, I offered an amendment, which would 
have provided $90 million for 1,600 FDA inspectors for imported 
food and $73 million for 630 domestic inspectors. It was 
defeated, but I think now more than ever we have to go back to 
that effort.
    Clearly, what we need is to have a comprehensive strategy, 
a unified strategy. There are several agencies with different 
and conflicting missions that ensure our food safety. There is 
no standardization for inspections. Processed food facilities 
may see an FDA inspector once every 5 to 6 years. Meat and 
poultry is inspected daily. We need to do something. Everyone 
here is agreeing.
    In 1998 the National Academy of Sciences' study concluded 
that, ``A model food safety system would have a unified 
mission, a single official who is responsible for food safety 
at the Federal level and who has the authority and the 
resources to implement science-based policy and all Federal 
activities related to food safety.'' It makes sense in order to 
protect our food supply to consolidate food safety activities 
into a single agency. I introduced the legislation in the House 
of Representatives, like my colleague on the Senate side. It 
establishes that independent agency with responsibility for all 
Federal food safety activities. It would transfer food safety 
inspection and food labeling activities to a new agency from 
the several agencies that now are engaged in that process.
    We have 32 co-sponsors of the legislation. It is 
bipartisan. People understand that this is the direction that 
we need to move in. This is just plain good government, in my 
view. I might also add, in his campaign President Bush publicly 
supported the idea of uniting all food safety responsibility 
under one agency. On June 9, he said in Philadelphia, ``The 
Federal Government is responsible for the safety of our 
Nation's food supply. The way things work now, there is one 
agency that inspects cheese pizza. There is another that 
inspects pepperoni pizza. There is one agency that inspects 
food grown outside of the United States, another for food grown 
here inside the United States. Apparently the revolutionary 
idea that maybe these functions could be combined has not 
dawned on anybody yet.''
    It is time to create a 21st Century approach to our food 
safety system, particularly because we have got this problem in 
the United States, but globalization, aging population, faster 
production, distribution of food increases people being at 
risk. I thank you for the opportunity to have me here today to 
testify. This is good common sense. I look forward to working 
with my colleague on this. I thank you again for your 
leadership and I thank you for letting me cut into the line.
    Senator Durbin. Congresswoman DeLauro, thank you and I know 
your beeper went off, so you are going to have to make a mad 
dash. I would just say that the one thing that we have to step 
back and do--so many times now on Capitol Hill--is say if 
terrorism disappeared tomorrow and our prayers were answered, 
would this still be a good idea? I think the answer is clearly 
yes, but terrorism has not disappeared and we have to put it 
into the equation now. I think it really adds an element of 
immediacy to this debate and perhaps it will move us off dead 
center, where we have been too long. Thank you for your 
leadership in the House. You are excused. Thank you very much.
    Mr. Robinson, I understand that some of the people who have 
headed up these agencies in the past at FSIS and FDA, once 
liberated from government service, have announced that they 
always thought this was a pretty good idea. Have you run into 
that?
    Mr. Robinson. We have obviously done some exploration with 
individuals and touched base with eight or ten folks, and I 
think is a pretty clear consensus, as I mentioned earlier, that 
conceptually, consolidation makes all the sense in the world 
and it ought to be pursued aggressively.
    I do want to make the point, though, it is not just 
consolidation of bureaucracies. You have 35 laws, as you 
mentioned, out there that also need to be rationalized. The 
basis for a lot of action is legislative in nature, and that is 
going to have to be addressed to make a single food safety 
agency realize the promise that so many of us believe it can.
    Senator Durbin. Thank you.
    Mr. Oleson, is there anything you would like to add?
    Mr. Oleson. The individuals we contacted, former 
administrators of FSIS and former commissioners of FDA, former 
Under Secretary of Agriculture, former Secretary of 
Agriculture, all concur that consolidation needs to take place 
and they all agree that one thing that should be consolidated 
is the inspection activities, at least. There are some 
differences after we get past that on what should be included, 
but inspection is one you can start with, as your bill clearly 
recognizes, Senator.
    Senator Durbin. Good. I appreciate both of you coming 
today. Thank you very much for your testimony and continued 
work. Maybe before GAO does another couple dozen reports making 
this recommendation, Congress will actually do something.
    Mr. Robinson. Well, the paper on the 1992 report, our first 
one on the subject, is starting to yellow. [Laughter.]
    Senator Durbin. Thanks for joining us. We appreciate it.
    Mr. Robinson. We will be in contact with your staff 
relative to the classified briefing.
    Senator Durbin. Thank you very much.
    I want to welcome our next panel: Dr. Elsa Murano, the 
recently confirmed Under Secretary of Agriculture for Food 
Safety, thank you very much for being with us today; Dr. 
Bernard Schwetz, who is the Acting Principal Deputy 
Commissioner of the Food and Drug Administration with the U.S. 
Department of Health and Human Services; accompanied by Joseph 
Levitt, the Director for the Center for Food Safety and Applied 
Nutrition from the U.S. Department of Health and Human 
Services; and a good friend, former colleague and a great 
public servant, Dan Glickman, former Secretary of Agriculture, 
who is now in private practice with Akin, Gump, Strauss, Hauer, 
and Feld. I want to make sure to announce that so, when you get 
back, your partners will forgive you for the time you have 
given us this day.
    As I said earlier, it is customary to swear in the 
witnesses, and I hope you will please stand and allow me to 
administer the oath. Do you swear the testimony you are about 
to give is the whole truth, and nothing but the truth, so help 
you, God?
    Ms. Murano. I do.
    Mr. Schwetz. I do.
    Secretary Glickman. I do.
    Senator Durbin. The record will indicate the witnesses 
answered in the affirmative, and I would ask you to, if you 
would, please give 5-minute opening statements, and your whole 
statement will be submitted for the record.
    Dr. Murano, would you be kind enough to start?

  TESTIMONY OF HON. ELSA MURANO, PH.D.,\1\ UNDER SECRETARY OF 
  AGRICULTURE FOR FOOD SAFETY, U.S. DEPARTMENT OF AGRICULTURE

    Ms. Murano. Mr. Chairman and Members of the Subcommittee, I 
appreciate the opportunity to appear at today's hearing and 
discuss our Nation's food safety system and structure. I am Dr. 
Elsa Murano, Under Secretary for Food Safety at the U.S. 
Department of Agriculture. As you know, I am a newcomer to 
USDA, having just been confirmed as Under Secretary on 
September 26, and I was sworn in October 2. I am honored to be 
serving in this important position and I am committed to the 
hard work ahead. I know there are many important food safety 
issues before the Congress, and I look forward to working 
closely with you to make progress on those issues.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Murano appears in the Appendix on 
page 68.
---------------------------------------------------------------------------
    I have been a researcher and teacher in the field of food 
safety. My research efforts have led me to investigate 
pathogens such as E. coli O157:H7, Listeria Monocytogenes, and 
Salmonella. I believe my experience as a scientist and educator 
and my perspectives as an outsider looking in will be valuable 
as I begin this new position. FSIS's mission is to ensure that 
the Nation's commercial supply of meat, poultry and egg 
products is safe, wholesome and correctly labeled and packaged. 
FSIS's goal is to protect the public health by significantly 
reducing the prevalence of foodborne hazards in meat, poultry 
and egg products. FSIS has a long, proud history of protecting 
the public health, dating back to 1906.
    Although changes have been made over the years to the 
inspection program, the most dramatic change occurred when FSIS 
published a Pathogen Reduction/Hazard Analysis and Critical 
Control Point--HACCP--systems rule in 1996. Under HACCP, 
industry is accountable for producing safe food. Government is 
responsible for setting appropriate food safety standards, 
maintaining vigorous inspections to ensure those standards are 
met, and maintaining a strong enforcement program to deal with 
plants that do not meet regulatory standards.
    Our food safety system is being challenged by many factors. 
They include emerging pathogens, an increase in international 
trade, new food products in the marketplace, a growing segment 
of the population at greater risk of contracting foodborne 
illnesses and gaps in education all along the farm-to-table 
chain. On September 19 the Bush Administration published its 
review of the food and agricultural system with a view toward 
identifying critical needs for the next century. The report, 
titled ``Food and Agricultural Policy, Taking Stock for the New 
Century,'' details the enormous changes that have taken place 
in food and agriculture. Food safety certainly is a vital part 
of food and farm policy, and the report emphasizes this.
    I would like to provide more details today about two key 
areas of the food safety infrastructure and the importance of 
integrated food safety programs. Let me begin with the USDA 
food safety infrastructure. Inspection of meat, poultry and egg 
products is an important part of that infrastructure. FSIS 
currently has approximately 10,000 employees, the bulk of which 
are stationed in the field. More than 7,600 inspection 
personnel are stationed in approximately 6,000 meat, poultry, 
and egg plants. FSIS also certifies foreign programs as 
possessing public health safeguards that are equivalent to the 
U.S. program and reinspects imported product as it enters the 
United States.
    FSIS is also responsible for assessing State inspection 
programs that regulate meat and poultry products that may be 
sold only within the State in which they are produced. There 
are currently 27 states that have a State meat or poultry 
inspection program and operate under cooperative agreements 
with FSIS. Another part of the FSIS food safety program 
involves its three multidisciplinary laboratories, which 
conduct laboratory testing for microbiological contamination, 
chemical and animal drug residues, pathological conditions, 
processed product composition, and economic adulteration.
    FSIS also conducts compliance and enforcement activities to 
address situations where unsafe, unwholesome or inaccurately-
labeled products have been produced or shipped. Surveillance is 
another part of the infrastructure. A strong food safety system 
must have a mechanism for identifying new food safety problems 
rapidly. USDA conducts surveillance of the food supply and HHS 
Centers for Disease Control and Prevention, in partnership with 
State and local health departments, conducts surveillance for 
human foodborne illness.
    Outbreak responses is also key. Because coordination is 
essential, we have taken steps to expedite communication during 
large, multistate outbreaks. One mechanism is the Foodborne 
Outbreak Response Coordinating Group, FORCG, a partnership 
established to better respond to interstate outbreaks of 
foodborne illness. USDA, HHS and EPA formed this partnership. 
This interagency group has coordinated and developed procedures 
for managing outbreaks, sharing information on potential 
sources of outbreaks and pathogens, and coordinating 
interdepartmental activities.
    A similar group, the Food Emergency Rapid Response and 
Evaluation Team, FERRET, has been established within USDA to 
coordinate the activities of USDA agencies. USDA participates 
in PulseNET, a national network of public health laboratories 
supported by HHS. These laboratories aid outbreak response by 
performing DNA fingerprinting of foodborne bacteria and 
comparing results through an electronic database maintained by 
CDC.
    Research is another important part of the food safety 
infrastructure. FSIS is not a research agency, but works 
through the Agricultural Research Service to meet its research 
needs. Risk assessment is another important part of the food 
safety infrastructure. You can never completely eliminate 
foodborne health hazards, and resources are limited. Risk 
assessments help us to set priorities.
    Education also figures prominently. Partnerships have been 
key in education. The Fight Bac campaign is sponsored by the 
Partnership for Food Safety Education, a public-private 
partnership with participation from USDA, HHS, and the States. 
I provided you folders containing some of the outreach and 
educational materials we use in the food safety education 
campaign. There are even a couple of brochures in Spanish, Mr. 
Chairman, that you may enjoy.
    Like every infrastructure, the food safety system requires 
periodic review, ongoing reinforcement and appropriate 
modernization just to keep pace with continuously emerging and 
often unique challenges. What has become very clear is that the 
services USDA provides, from eliminating foodborne pathogens to 
protecting against plant and animal pests and diseases to 
encouraging farm practices that stress conservation--all are 
interrelated and must continue to be carefully and 
comprehensively coordinated. We can do more to examine whether 
Federal food safety agencies can improve the services they 
provide, but this should be done by a careful step-by-step 
process and by continued coordination with other agencies 
involved in the food safety system.
    Mr. Chairman, thank you again for this opportunity to 
discuss our Nation's food safety system and structure, and I 
look forward to any questions you may have.
    Senator Durbin. Thanks, Dr. Murano. I will have some 
questions. Dr. Schwetz, from the FDA.

    TESTIMONY OF BERNARD SCHWETZ, PH.D., D.V.M.,\1\ ACTING 
 PRINCIPAL DEPUTY COMMISSIONER, FOOD AND DRUG ADMINISTRATION, 
 U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES, ACCOMPANIED BY 
  JOSEPH LEVITT, DIRECTOR, CENTER FOR FOOD SAFETY AND APPLIED 
    NUTRITION, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Dr. Schwetz. Good afternoon, Mr. Chairman. I am Bernard 
Schwetz, the Acting Principal Deputy Commissioner of the Food 
and Drug Administration. I am appearing here today on behalf of 
the Department of Health and Human Services. Thank you for this 
opportunity to discuss the Federal food safety system. Ensuring 
the safety of the food supply is a top priority for HHS. I am 
pleased to be here today with my colleague from USDA, Dr. Elsa 
Murano, Under Secretary for Food Safety.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Schwetz appears in the Appendix 
on page 74.
---------------------------------------------------------------------------
    The American food supply does continue to be the strongest 
and the safest in the world. Great strides have been made in 
recent years that have strengthened the Federal food safety 
system. The Federal food safety program includes new 
surveillance systems, better prevention programs, faster 
outbreak response, enhanced education and better coordinated 
and focused research and risk-assessment activities. Food 
safety agencies are working more closely together than ever 
before, but our world is constantly changing and we must 
continue to change with it. Indeed, we cannot rest until we 
have built a strong and credible food safety system that 
addresses the full range of food safety issues, one that is 
built on scientific expertise, that is risk-based and 
recognizes and responds to new risks, that provides a critical 
inspection presence, that has the same level of protection to 
consumers from both domestic and imported foods, that 
efficiently stewards new technologies to the market and that 
effectively educates and communicates with consumers.
    Within HHS, the Food and Drug Administration has 
jurisdiction over 80 percent of domestic and imported foods 
that are marketed in interstate commerce. This jurisdiction 
includes all food products except meat, poultry, and egg 
products, which are regulated by USDA. FDA seeks to ensure that 
foods are safe, sanitary, nutritious, wholesome, and properly 
labeled. HHS's Center for Disease Control and Prevention has an 
important complementary public health role. As the lead Federal 
agency for conducting disease surveillance, CDC monitors the 
occurrence of illness in the United States attributable to the 
food supply.
    The disease surveillance systems coordinated by CDC are an 
essential information network for providing early warnings 
about dangers in the food supply, for demonstrating progress in 
reducing foodborne illness and for indicating new or changing 
patterns of foodborne illness. Both the FDA and CDC work 
closely with our Federal food safety partners and with State 
and local health food safety officials.
    While the current system is working, the system needs to be 
strengthened to address the current challenges. The goal of HHS 
is to work with our Federal and State partners as well as with 
academia, industry, consumer organizations and Congress, to 
build on the current foundation, resulting in a strong and 
credible food safety system that addresses the full range of 
food safety issues. The system has three simple steps: To 
identify risks, to take action, and to measure results.
    In identifying risks we must ensure a strong science base, 
which is the foundation of any successful food safety system. 
We must also develop, enhance, and maintain surveillance 
systems that can quickly and accurately identify food safety 
risks in human food and animal feed supplies and manage disease 
risks effectively. These surveillance systems are the key to an 
effective emergency response capability.
    In taking action we must start with prevention. We need 
strong risk-based prevention standards to prevent contamination 
of all human foods and animal feeds over the farm-to-table 
continuum. As these risk-based standards are developed, we need 
education and training programs so that those in the industry 
and the public can effectively utilize them to reduce the risk 
of illness. In addition, domestic inspections of the food 
industry are essential to ensure that the appropriate 
preventive controls are implemented.
    While FDA uses a risk-based system to prioritize its 
inspections and now inspects firms that produce high-risk foods 
on an annual basis, we still need to provide more frequent 
coverage for all the firms. For imported food, we need a strong 
inspection and monitoring program to ensure that imported foods 
meet the same level of protection as domestic foods. For both 
domestic and imported food, we need to maintain an adequate 
enforcement program to be sure the rules are followed. We also 
need science-based methods to measure results so we know how we 
are doing. When implemented, the framework I have just 
described would minimize foodborne illness and injury, maximize 
consumer confidence and enhance global competitiveness.
    As food may be a medium for spreading infectious diseases, 
let me address the Department's approach to the challenges of 
bioterrorism. The broad goals of a national response to 
bioterrorism are to detect the problem, control the spread of 
the epidemic, and treat the victims. Our approach to this 
challenge has been to strengthen public health infrastructure 
to deal more effectively with epidemics and other emergencies, 
and to hone our emergency health and medical response 
capacities at the Federal, State and local level. We have also 
worked to forge new partnerships with organizations related to 
national security. Our efforts have been focused on improving 
the Nation's public health surveillance network to quickly 
detect and identify the biological agent that has been 
released, strengthening the capacities for medical response, 
especially at the local level, expanding research on disease 
agents that might be released, developing new and more rapid 
methods for identifying biological agents, and improve 
treatments and vaccines and improving information and 
communication systems, among other activities.
    Thank you for this opportunity to discuss our food safety 
program. HHS appreciates your continued interest and leadership 
in improving food safety. I look forward to working with you 
and the Subcommittee on ways to continue to improve the safety 
of the Nation's food supply. I would be happy to answer 
questions.
    Senator Durbin. Thank you, Dr. Schwetz. Secretary Glickman.

TESTIMONY OF HON. DAN GLICKMAN, AKIN, GUMP, STRAUSS, HAUER, AND 
     FELD, L.L.P.\1\ FORMER SECRETARY OF AGRICULTURE, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Secretary Glickman. Thank you. I am one of those liberated 
souls that--speaking for myself. But it is a pleasure to be 
before this Subcommittee and my senior statesman, Senator 
Durbin, a great leader. Let me just say that I agree with the 
statement that we have the safest food in the world, and our 
safety system is the best in the world, and part of that is due 
to the very talented workforce at FSIS and APHIS and the 
Agriculture Marketing Service people in the FDA and the other 
agencies, and I also would say things are better coordinated 
now than they were 10 years ago among the various agencies.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Glickman appears in the 
Appendix on page 94.
---------------------------------------------------------------------------
    But if the current system did not exist and we started from 
scratch to put it together, it would not look like it does now. 
We would not design it that way. We would make some structural 
changes. I believe the United States needs fundamental 
organizational change in the way the Federal Government handles 
food safety. After working on these issues both in the House, 
as a House member from Kansas, and as Secretary, during that 6-
year period when Federal food regulation underwent the most 
significant changes in a century and faced some of its most 
severe tests, particularly in the courts, I have concluded that 
the basic structure is flawed and needs rebuilding.
    Senator Durbin, I commend you for doggedly pursuing this 
problem, and appreciate the opportunity. In my statement I 
start out with a few things about Federal food safety statutes 
now. These are substantive statutes. I am not going to repeat 
them. They are in the statements, but things like we have 
called for before, for example, the ability for the government 
to level civil penalties, the ability for USDA and FDA to order 
recalls which are not there. There is a need for FDA and USDA 
to have the authority to act against food when epidemiological 
evidence links it to disease, not just in those instances when 
the food is infected with pathogens.
    We need a lot more resources, particularly in the FDA, to 
do its business, and FDA needs an adequate food manufacturing 
database. Currently, USDA knows where meat and poultry is 
processed because of Federal recordkeeping requirements. The 
FDA does not have complementary information. So all these 
things, many of which continue to build on what others have 
said, I think need to be mentioned, because notwithstanding 
what we do with organization and restructuring the Federal 
Government, the substantive laws need to be strengthened to 
give the government appropriate authority to do its jobs.
    But on the regulatory structure, one of the lessons we 
learned during the Clinton Administration was, short of 
outright organizational changes the need for much greater 
coordination across food safety-related agencies was a high 
priority, and that led to a number of interagency entities, the 
President's Council on Food Safety, a Joint Institute for Food 
Safety Research, and other items. While all of these efforts 
vastly improve the overall Federal response to this problem, 
they suffer fundamental flaws that a consolidated Federal 
regulatory agency would remedy. First and foremost is the 
central control of resources.
    While joint planning, communication and coordination 
facilitate a united response to food safety, at the end of the 
day, unless control over spending is vested in a single 
authority, there will remain bureaucratic and institutional 
obstacles to achieving the ends that we want to achieve. A 
unified centralized structure brings with it another asset, a 
central decisionmaking entity who is in charge, who is 
accountable for the problem--an example is the Starlink 
episode. The Starlink corn episode, while not probably a 
traditional food safety issue, it highlights that flaw.
    Most strikingly, many questioned the initial wisdom of a 
split registration for this particular product, and the ability 
of the system to keep the corn in separate segregated marketing 
channels, one for animals and one for human consumption. 
Regrettably, those deficiencies were realized in what happened. 
Now, fortunately we have not seen that kind of problem in the 
magnitude on the human side of the picture, but we have seen it 
in a variety of animal-related issues, and it could have easily 
happened here.
    I have long felt that while we went through the process in 
the Clinton Administration of improving coordination and 
dealing with some of the substantive issues, that we did not 
want to let a heated debate over reforming the structure 
interfere with our primary goal. I urged a go-slow approach to 
organizational revision during the period of enormous food 
safety change that we went through in the last 8 years. I did 
not want to either divert the attention from the reform 
process, nor permit disagreements over structure to stop that.
    But the fact of the matter is that the time is now, to 
bring these functions together, and I am confident a successful 
rationalization of the Federal food safety regulatory structure 
will require bold strokes. A piecemeal approach will leave us 
essentially where we are, with a fragmented, and duplicative 
system.
    Now, finally I might make a couple of comments about 
terrorism and related threats. As we look at the threat from 
chemical or biological attack or other terrorist threats, too 
frequently agriculture and food received scant attention. We 
got a wake-up call last month, not only from the savage 
viciousness of the attack, but also from the new kind of 
threats we face. For example, the grounding of the Nation's 
fleet of crop dusters drove that point home.
    While at USDA, we launched a multiagency review of 
agriculture's exposure to non-conventional threats. Without 
revealing the specific threats, nor the steps we are taking to 
protect ourselves, let me simply state that the problem is 
immense, as are the consequences and the effort we need to 
protect from it. Consider again the Starlink episode, which I 
referred to. That is a telling lesson of how quickly and 
pervasively an undesired product can contaminate our food 
supply, or consider a few years ago when Karnal Bunt first 
infested this country. To eradicate this wheat fungus, we 
prevented the farmers from whose land the infected wheat 
originated from planting wheat at all for 3 years.
    The point these episodes illustrate is that even 
comparatively benign contaminants to our food supply can spread 
dramatically, especially given the size and concentration in 
much of our food distribution and processing, and may need 
profound and long-lasting steps to recover. I should point out 
that while agents such as botulism or anthrax affecting food 
and water get a lot of attention, media attention--American 
agriculture could also be gravely threatened by outbreaks of 
more traditional problems like foot-and-mouth disease and BSE.
    The solution partially lies with reform structures and 
organizational changes. It also partly lies with good statutory 
authority given to the agencies--fair statutory authority--and 
I am confident that you will do that. In closing, let me repeat 
the three points I want to emphasize with you: One, we need to 
reorganize and consolidate our Federal food safety regulators; 
two, we need just as urgently to make improvements to our 
underlying food safety statutes; and, third, an integrated food 
safety regulatory structure is critical to meeting the new 
challenges of terrorism we face.
    All of this is needed to ensure our highest priority, which 
is continued public confidence in the safety of our food 
system, which is the linchpin of both our public health, as 
well as the economic health of American agriculture.
    Thank you, Mr. Chairman.
    Senator Durbin. Thank you, Secretary Glickman. Let me start 
with some questions.
    Dr. Schwetz, you said at one point--I do not know exactly, 
but paraphrasing you--we should view food as a medium for 
bioterrorism. I think that is really one of the elements that 
underlies this hearing today. Can you give me a description of 
how food could be a medium for bioterrorism?
    Dr. Schwetz. Well, yes, I would be happy to do that, Mr. 
Chairman. What I really do not want to do is talk in any detail 
that would provide----
    Senator Durbin. No, I do not want you to.
    Dr. Schwetz [continuing]. A roadmap for people to do things 
that we do not want to have happen. But because we have an 
agricultural process that produces a lot of food, either from 
the United States or imports from outside the United States 
that is distributed widely, common food items that we either 
import and consume as they are, or foods that are processed 
within the United States, there are a relatively small number 
of food that represent a large part of what we consume, and it 
would be possible for one of those to become the medium of some 
agent that would be distributed that would accomplish what a 
terrorist might want to do, is to reach a large number of 
people relatively quickly through some means that they would 
not necessarily expect there to be a problem.
    Senator Durbin. Dr. Murano, our lives have all changed 
since September 11 at every level, governmental and personal. 
How have things changed in the outlook of your agency at the 
U.S. Department of Agriculture, FSIS, and other food safety 
inspection since September 11?
    Ms. Murano. Well, Mr. Chairman, I think September 11 
changed everybody. Let me begin by saying that. At the agency 
we took a hard look, and are right now taking a hard look at 
what systems we have in place and how to improve upon them. 
Thankfully, we have 7,600 inspectors inspecting meat and 
poultry in every plant in the United States. Having them in 
place as a matter of our standard operating procedures, gives 
us an advantage, as a public health agency, which is what FSIS 
really is.
    We are about food safety, and what we do is inspect these 
products to try to prevent to the greatest extent possible any 
foodborne outbreaks, which is one of the main goals of the 
agency. We can always do better, and I assure you, again 
without really saying too much as far as details, that we are 
looking at what other ways we can improve our system. Certainly 
the entities that I mentioned in my testimony, FORCG and 
FERRET, have been crucial for us to be able to ascertain how to 
better coordinate activities, not only within USDA, but also 
with our partner in health, HHS.
    Senator Durbin. Let me follow up on that, and just staying 
with the food security aspects that we have now raised since 
September 11, and without asking for any detail for the same 
reason that Dr. Schwetz mentioned, has there been a gathering 
of the various food safety inspection agencies at the Federal 
level, of all the different agencies, to sit down and to try to 
map out a common strategy to protect the security of America's 
food supplies since September 11?
    Ms. Murano. Let me answer that, Mr. Chairman, by saying 
that as soon as I was confirmed, we had a meeting of FERRET, 
which are agencies within USDA that have to do with food 
emergency rapid response. We are working right now with our 
partners in HHS to get FORCG to look at what its charter is, 
what it is doing, the activities that it has done in the past 
and how we can improve those. We have meetings scheduled very 
soon, and we have had conversations with our partners at HHS to 
pursue these avenues. So I assure you that we are extremely 
cognizant of the fact that, now more than ever--and I agree 
with the words that you said at the beginning of this session--
at this time of war, we have to work together.
    Senator Durbin. Have there been special meetings called 
since September 11 of these agencies, to talk about food 
security?
    Ms. Murano. Yes, sir.
    Senator Durbin. Is there more evidence of cooperation among 
these agencies?
    Ms. Murano. I can safely tell you yes, and perhaps one of 
the reasons is a simple reason--well, two reasons. The one I 
just stated is the fact that this emergency has brought us 
together as Americans and certainly has elevated the importance 
of these issues and has made us want to work together more than 
ever. Second, because there are a lot of new faces, not just 
mine. When you have a lot of new faces, people perhaps do not 
have the past histories of animosity that might preclude 
reaching over and meeting each other. So we have been able to 
get together very well and very quickly.
    Senator Durbin. Have you talked about coordinating 
inspections? We know there is such a wide variety of inspection 
standards when it comes to food at the Federal level. Since 
September 11, have you addressed that possibility of 
coordinating these inspections?
    Ms. Murano. It is one of the issues that we are discussing.
    Senator Durbin. Dr. Schwetz, same question. Since September 
11, what has happened in terms of the food security issue at 
FDA and what has happened in terms of your relationship with 
other agencies?
    Dr. Schwetz. I would reinforce what has already been said, 
that we have had meetings between a number of Federal agencies, 
even going beyond HHS and USDA, to bring agencies together to 
discuss what are the areas where we need to be communicating 
more effectively to deal with these kinds of issues, where are 
weaknesses that we have where resources need to be put now to 
strengthen----
    Senator Durbin. Can you tell us any of those weaknesses 
that we might address at the congressional level? Is there a 
need for some funding that is readily apparent to you, in light 
of September 11, where we should look at it immediately?
    Dr. Schwetz. They are matters of the proper legislation and 
authority to be able to do the kinds of things that we have 
limits to now, and some of them have already been discussed.
    Senator Durbin. Can you give us examples?
    Dr. Schwetz. The ability to hold product once we have a 
suspicion that something might be wrong, civil money penalties 
to a greater extent than we have worked out these arrangements 
with Customs and other agencies and with States. So there are 
some legislative changes that need to be made, but primarily 
the vulnerability of the FDA is not having enough people to be 
able to man the spots that we need to have covered, to have the 
inspectors, to have the laboratory capabilities to back up the 
sampling that would follow questions of terrorist action. So 
between resources and legislation, those are two major areas.
    Senator Durbin. Secretary Glickman raised an important 
point. I want to ask him a question about it directly, but 
about the whole question of the authority to withhold food 
product based on epidemiological concerns, as opposed to 
pathogens. Is that another element or another area where you 
see need for legislative change?
    Dr. Schwetz. Yes, that would be.
    Senator Durbin. So at this moment in time, if we suspected 
or even knew that there was a source of food in the United 
States that posed a danger because of bioterrorism or 
epidemiological contamination, does the FDA or the USDA, have 
the authority to take that product off the market?
    Dr. Schwetz. I cannot answer that exactly, but I would 
assure you that we would look between the Federal agencies, 
between USDA, between Customs, whatever authorities we have 
collectively, we would work as hard as we could to keep that 
from spreading.
    Senator Durbin. I am sure you would. Anyone in good 
conscience would, but clearly Members of Congress, in good 
conscience, need to give you the clear authority to do it.
    Dr. Schwetz. Yes.
    Senator Durbin. Secretary Glickman, that is a point that I 
think we ought to spend a moment on. But your belief now is 
that the current law does not empower the agencies to do this? 
Though they might find some way to do it, it is not a clear 
delegation of authority.
    Secretary Glickman. At best, it is unclear, and USDA was 
specifically challenged in this, in one particular instance, 
where we did not have complete success, let me say. You might 
find some general authority under some welfare clause provision 
of the Constitution or some other agency, FEMA or somebody, but 
I do not believe it is clear.
    Senator Durbin. Well, so that we understand this for the 
record, should we ever--and God forbid that we do--run into a 
situation of biological contamination, acts of bioterrorism on 
the food supply, it is your understanding--and I believe that 
the other witnesses are in agreement--that we do not have the 
statutory authority at this moment to remove product from 
market, off the shelves, away from consumers, absent some 
specific change in the law?
    Secretary Glickman. I do not believe so. I think that 
probably, if you had a national emergency with bioterrorism, we 
would find it somewhere. But I do not think we have it clearly 
enough to deal with the non-terrorist problem, and therefore we 
would not necessarily be able to jump to the terrorist problem.
    Ms. Murano. Mr. Chairman, may I interject a little bit 
here?
    Senator Durbin. Sure, Dr. Murano.
    Ms. Murano. As you probably know, FSIS has the authority to 
seize and detain products. So that is a very important 
authority that we do have, and that certainly is one of the 
ways that one can stop an outbreak from spreading any further.
    Senator Durbin. And let me ask you to follow up on that. 
Secretary Glickman made note of the fact that the USDA needs 
authority to recall food from the market. You were talking 
about stopping and detaining the delivery, but recalling food 
from the market is not in your list of current authorities; is 
that right?
    Dr. Schwetz. That is correct.
    Senator Durbin. Is that your understanding, Dr. Murano?
    Ms. Murano. That is correct. I would say food safety is the 
primary issue, obviously, with my colleagues at HHS and 
certainly with the Food Safety and Inspection Service. When 
there is an outbreak situation, recalling product as rapidly as 
possible is extremely important. I think we all agree with 
that. The real question, I suppose, is who should have the 
responsibility to do that? That is something worth exploring, 
and I think that is what the Secretary is alluding to.
    Secretary Glickman. Mr. Chairman, I would just say most 
companies, in my experience, would voluntarily and 
cooperatively work this issue, but because of mass 
communication and dissemination of food, and the logistics 
problems, you could imagine a circumstance, even if a 
cooperative company would be involved in doing it, you could 
not get the food fast enough back into the hands of either the 
government or the company itself.
    Senator Durbin. So we have two things that have come out so 
far, and one is the use of these epidemiological standards for 
the monitoring of the food supply, something clearly that needs 
to be done, and, second, the ability to recall the product 
clearly in the law, where there is a national issue or urgency 
involved in it. Those two things seem very clear.
    Now, Secretary Glickman, you also talked about the 
imposition of fines, and what are you alluding to there?
    Secretary Glickman. Well, right now I would say the 
Department of Agriculture has the ultimate penalty, the nuclear 
bomb, so to speak, because what it can do--it could withdraw 
the mark of inspection. It can close a factory down, which is 
obviously a critical power. But, in some cases, you want to 
move more creatively and quickly without having to shut a 
factory down, without having to cause people to lose their 
jobs, and civil penalties are not within the ambit of USDA's 
authority, as they are in the Consumer Product Safety 
Commission and, I believe, other agencies.
    Senator Durbin. Dr. Murano, you made the point that you are 
brand-new and, in that respect, have newer faces and less 
baggage and less of a history. Your background is in science, I 
take it?
    Ms. Murano. Yes, sir. I am a scientist.
    Senator Durbin. As you take a look at the Federal laws 
involving food safety and inspection, do you see that common 
scientific thread that weaves through these 12 different 
agencies and 35 different laws?
    Ms. Murano. Well, Mr. Chairman, certainly if you are asking 
me common sense science, I am not going to go there.
    Senator Durbin. No one is going to go there based on common 
sense.
    Ms. Murano. But let me say that I think we all recognize 
that using science as the basis for what we do for food 
protection is the goal that we want to achieve, and risk 
assessment within the risk analysis system is one way to 
achieve it, as I discussed in my opening remarks. Following 
that thought, I would like to say again that because food 
safety is our goal and what FSIS does, because it is a public 
health agency, anything that would improve the safety of our 
food supply is something that we are interested in doing.
    I would like to say one more thing regarding recalls. In 
exploring this issue, we have to obviously think about whose 
responsibility it should be for our food supply. Should it be 
the responsibility of the people who make it, or should it be 
the government's responsibility? There are some extremely 
complex issues that are embedded within that question. So it is 
something that we have to look at very carefully.
    Senator Durbin. I am going to ask one semi-scientific 
question, and forgive me, as a liberal arts lawyer, if I do not 
state it very artfully, but, Dr. Schwetz, is there any 
mechanism in place now where you can monitor contamination 
beyond the obvious Salmonella, E. coli, to those new threats 
that we are considering, the bioterrorist threats? Are there 
ways to monitor these things?
    Dr. Schwetz. Yes. The bacteriological and the other 
detection procedures for being able to identify viruses and 
bacteria and other organisms that might be included, those 
procedures are, for the most part, available. Many of them have 
been used clinically for many years. So the methods to identify 
those organisms are available for our use. We have adapted 
those so we can identify those organisms in food or other 
places where they might come into contact with food. So the 
methods are available to identify the organisms.
    Senator Durbin. The last question I will ask of the three 
principals on the panel goes to this culture between the FDA 
and the USDA. This is a battle I have been witnessing for 20 
years. Sometimes it is a friendly relationship and sometimes 
not so friendly, but it appears that the two agencies really 
view their missions in different terms, and one of the reasons 
we do not have a single food agency is because there are those 
who just love the USDA and every part of it and do not want to 
give up anything, on Capitol Hill and the population at-large, 
and others who feel the same about the FDA. But many argue that 
they really are two different philosophies, two different 
cultures that come to this business of food inspection. I would 
like to first ask Secretary Glickman, what is your thought on 
that?
    Secretary Glickman. Well, Senator, I really do not think 
that is as big a factor. I will tell you, after the Congress 
reorganized the Department of Agriculture in 1994, you created 
a separate Food Safety and Inspection Service and pulled it out 
of the marketing and regulatory programs, basically--I must 
tell you my experience with those folks at FSIS led me to 
believe that they were among the toughest government regulators 
that I saw, and people of high integrity.
    Now, the fact of the matter is they were officed in the 
same building and basically were in the same venue with people 
who had promotion functions, as well. I do not really think 
that is the critical problem here, because I think the system 
can kind of trudge along probably all right with coordination 
the best you can. I just do not think, given the modern world 
of pathogens and threats, that you cannot do it very well 
without some sort of central accountability there, and that is 
why I think this needs to be done.
    I think in the old days, this may have been a problem. I 
really do not think it is as much of a problem anymore.
    Senator Durbin. Dr. Schwetz, you have been at FDA for 
awhile. What is your observation?
    Dr. Schwetz. Yes, I have been with the FDA for a little 
over 8 years now, and my observation is that the working 
relationship is far different today than it was 8 years ago. 
There are a number of things that have happened in the past few 
years that have forced us to work together more effectively 
than we ever did before, and I think for the most part we have 
come to realize that we do have partners in other agencies that 
we have to depend on, we have to work with, for example, to 
keep things like BSE out of the country, and foot-and-mouth 
disease. So the readiness plans that we have developed, the 
science that we have shared, the people that we have kind of 
moved back and forth to tap the intelligence that we have 
between the agencies, there is a lot more of that today than 
there ever has been.
    Senator Durbin. Dr. Murano, you are the new person in town, 
but do you see a difference in the mission between the FDA and 
your food safety responsibilities at USDA?
    Ms. Murano. Mr. Chairman, when I talk to my colleagues in 
FDA who are scientists like myself, we are scientists and we 
have the same view in terms of what we want to do to achieve a 
safer food supply. So, at that level, certainly I know that we 
have kindred spirits. What we have to do is forget what the 
relationships have been in the past. I know that probably 
sounds extremely naive of me to say that, but I am going to 
give it my best and I know my colleagues at HHS will, as well, 
because we are in a new day. We are facing threats that we 
never imagined we would have to be facing and we are committed 
to working together.
    We are Americans. We have an incredible challenge ahead of 
us, and we have to meet that challenge. This is the time to do 
it.
    Senator Durbin. Thank you very much. Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman, for holding 
this hearing. This is the third hearing that I have 
participated in on this subject of oversight of food safety, 
and I commend the Chairman for his long-standing interest in 
this area. I am not going to go into my full opening statement, 
but I would like to say to you, as a follow-up to this 
hearing--I would like to request that the administration 
witnesses submit for the record a comprehensive list of all the 
Federal agencies involved in food safety, from the Animal and 
Plant Health Inspection Service at the Department of 
Agriculture to the U.S. Customs Service, along with a 
description of the function the agency serves, the current 
personnel levels at the agency, the personnel needs of the 
agency in terms of both numbers and skills. I know that is not 
new information, because I know from talking to Sean O'Keefe 
allegedly that request has gone out to various agencies about 
where they stand in terms of their personnel.
    Senator Voinovich. It is my understanding the Food Safety 
Inspection Service at the Department of Agriculture is working 
to attract health inspectors with a stronger service background 
to improve the agency's oversight. I think this kind of 
information would be very useful to this Subcommittee in our 
deliberations.
    In terms of questions, in the governmentwide high-risk area 
of human capital management, GAO says the following about the 
Department of Agriculture: ``Organizational cultural problems, 
including resistance from the affected USDA agencies and 
employees, have hampered department-wide reorganization and 
modernization efforts. Further, the Nation's food safety 
system, in which USDA plays a major role, continues to suffer 
from inconsistent oversight, poor coordination and inefficient 
deployment of services.''
    Do you feel--and I am asking this of the administration 
witness--do you feel that the human capital management as it 
relates to food safety oversight is an issue only at the 
Department of Agriculture, or does it span across various 
departments and agencies involved in our Federal food safety 
oversight system? If the problem does include the entire food 
safety system, would a consolidation--that is what this is all 
about--would a consolidation of food safety oversight into one 
central agency improve this organization culture that is 
resistant to change?
    Ms. Murano. I would like to answer that by saying I think 
we all know that managing people is always a challenge, no 
matter what organization you are talking about, whether it 
deals with food safety or it does not deal with food safety. I 
am aware of great efforts that are taking place right now to 
modernize the workforce of the Food Safety and Inspection 
Service. I have been very impressed with the effort that these 
folks have begun already with their new consumer safety 
officers, to bring a highly technically-trained individual to 
inspection plants.
    There are also efforts to--and, in fact, right now there 
are epidemiologists on staff, as well, who are dispatched in 
cases where there might be a foodborne illness outbreak 
suspected. So it is not, I do not think, any more the perhaps-
stereotypical view that people have held over what inspectors 
are. We have extremely highly-trained people and have worked 
really hard in that last few years to modernize the workforce. 
There has been a reorganization at FSIS to better serve or 
better accomplish the services that FSIS is supposed to 
provide.
    Is there room for improvement? Absolutely, there always is 
room for improvement, and that is what I am here for, and that 
is what the administrator at FSIS has as a top priority, 
because that is one of the two things that FSIS does and does 
very well--inspect our food supply in a way that is effective 
and in a way that is done in a transparent way, and that is 
accountable. That is the key feature of any activity that one 
conducts. You must be accountable to the people that you serve 
and to your superiors.
    The second activity, of course, has to do with regulations, 
and to base those on science is a key feature of FSIS as an 
agency. So I think we need to start looking at what the agency 
has accomplished in the last few years under Secretary 
Glickman, who certainly has been witness to some of those 
planning activities, and I am happy to tell you that those are 
being realized right now, even as we speak.
    Would better cooperation and some consolidation be a way to 
go? We are very open to discussing any way that will improve 
the safety of our food supply, because that is our commitment.
    Senator Voinovich. Well, the fact of the matter is that we 
have been talking about this--the Chairman of the Subcommittee, 
what, you have been working on this for 20 years? We keep 
talking about something is going to happen, and even though 
there are some really good things that each agency is doing and 
we have a fine system, I do not think it is where it ought to 
be. From a governmental point of view, as I look at this 
organization, speaking as a former mayor and governor, it is a 
crazy patchwork that does not make sense and, to me, needs to 
be reorganized to get the job done, to eliminate the 
duplication, take advantage of the strengths that we have in 
the various departments and get the job for the public.
    I know some of the industrial people are worried about it 
because we will have some kind of a super-czar agency that 
might harass them or whatever the case may be. But I would like 
you to tell me if you have seen any better coordination in the 
last couple of years. I think it has gotten to the point where 
you need to reorganize this operation.
    Mr. Schwetz, I would like your opinion. What do you think?
    Dr. Schwetz. Our feeling is that reorganization by itself, 
Senator, is not going to make our food safety system a lot 
better than it is today. We have already gained a lot of 
benefit in the last few years by virtue of better funding, to 
be able to do the work which represents the underpinnings for a 
safer food supply. So there has been a lot of progress made, 
and we think that even within the existing system more progress 
can continue to be made.
    If the decision is made that there would be a single food 
agency, it is not a matter of reorganization. The legislative 
underpinnings to determine the authorities have to be 
redetermined. The right kind of budget support has to be there 
to deal with the risks that we would identify are the primary 
risks to deal with in the food supply. So we have to have the 
right funding, we have to have the right laws, we have to have 
the right kinds of expertise within that agency or within our 
existing agencies to be able to deal with the risks that we 
have.
    One of the concerns that we have, also, is that even within 
a large organization where you have an office of this and you 
have an office of that, you still have different cultures 
between various components of a large organization. So we would 
have to work awfully hard to be sure that we do not have those 
same kinds of differences between components of a new 
organization that we all cite today as those examples at the 
margins of our organizations now that make it look like we have 
two different approaches or two different people looking at the 
same problem. So reorganization by itself is not going to be a 
simple thing and it will not be enough to really----
    Senator Voinovich. Reorganization is never simple. I have 
been through it several times in both capacities, but the issue 
is, have we gotten to the point now where we need to do that? 
What do you think of Chairman Durbin's bill?
    Senator Durbin. Put him on the spot.
    Senator Voinovich. What do you think about it? Is the 
administration at all interested? Of course, they have got 
their hands full right now. I am sure they are not thinking 
about this problem, but where are we?
    Dr. Schwetz. The new bills do address some of the problem, 
but one of the difficulties that we recognize, for example, 
within the Food and Drug Administration itself, is that we have 
certain components of the agency that are specifically assigned 
to food safety, but the way we are organized there are also 
parts of each one of our components of the agency, that even 
though they might be assigned to drugs or to veterinary drugs 
or to other statutory authorities, that still involves food 
safety. So it is very difficult to say that this is the part of 
the FDA that deals with food safety, because there is a large 
part of it that also deals with drugs, deals with devices, and 
deals with biologics. They also have people who deal with food 
safety issues. So that makes it very difficult to think about 
how the Food and Drug Administration would work if the food 
part of it was taken out and took out the research 
capabilities, took out the field capabilities, all of which are 
shared between food questions and questions of other products 
that we regulate. The same question exists if you expand it 
between agencies.
    Ms. Murano. The administration has not taken a position on 
this issue, but I would like to say again that my office is 
open to discussion on this subject.
    Senator Voinovich. Mr. Glickman, you have been there. What 
do you have to say about it?
    Secretary Glickman. I agree with you. I would say that, at 
a minimum, budgets, planning and accountability for food safety 
ought to be in one place. Now, the devil is always in the 
details. I was just thinking as you were talking, the 
inspection functions--those of you who know the difficulties in 
the relationships between inspectors and FSIS at USDA, and that 
has got a long history and culture, know that that is a 
significantly different relationship than certainly you have at 
FDA, where you hardly have any inspectors at all. So, as you 
say, this has to be done very intelligently. It has to be very 
inclusive in order to not create a revolution in the process, 
but that should be no reason not to try to do it.
    I think that is why I think somebody suggested--I think the 
GAO suggested you start at the inspection, try to bring them 
together, because that is where the rubber hits the road in 
terms of finding problem product. But I go back to this thing, 
there has got to be some central budgeting and central 
accountability in this process, as well. If you do not have it, 
then it is not worth anything.
    Senator Durbin. Thank you very much. Let me ask one last 
question of Dr. Murano and Dr. Schwetz. Since September 11, 
there has been a heightened awareness of national security and 
a lot of efforts to coordinate the U.S. response, and I am one 
who applauds Governor Ridge joining the administration in his 
new capacity with the Homeland Defense Agency. But can you tell 
me whether or not either of your agencies, USDA and the FDA, 
have been included in these national security briefings and 
discussions since September 11?
    Ms. Murano. I can tell you, Mr. Chairman, that we are very 
much included, and that is all I will say.
    Senator Durbin. OK. Dr. Schwetz.
    Dr. Schwetz. Yes, we are also very much included with a lot 
of the discussions that are going on between agencies and with 
the National Security Council.
    Senator Durbin. Thank you. Thank you very much. I want to 
thank this panel for the contribution they made today. We 
appreciate you coming by.
    I am now pleased to welcome the next panel and invite them 
to come forward: Dr. Michael Jacobson, Executive Director of 
the Center for Science in the Public Interest; John Cady, 
President and Chief Executive Officer of the National Food 
Processors Association; Dr. Peter Chalk, Policy Analyst with 
RAND Corporation; Manly Molpus, President and Chief Executive 
Officer, Grocery Manufacturers of America; and Tim Hammonds, 
President and Chief Executive Officer, Food Marketing 
Institute.
    Thank you all for coming. If you will remain standing 
behind your appropriate name places, I will swear you in, as 
custom of the Subcommittee. Please raise your right hand. Do 
you solemnly swear to tell the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Cady. Yes.
    Mr. Chalk. Yes.
    Mr. Hammonds. Yes.
    Mr. Jacobson. Yes.
    Mr. Molpus. Yes.
    Senator Durbin. Thank you very much. Let the record 
indicate that the witnesses have answered in the affirmative.
    Dr. Jacobson, would you be kind enough to begin?

TESTIMONY OF MICHAEL F. JACOBSON, PH.D.,\1\ EXECUTIVE DIRECTOR, 
           CENTER FOR SCIENCE IN THE PUBLIC INTEREST

    Mr. Jacobson. Thank you very much Senator Durbin. My name 
is Michael Jacobson. I am the Executive Director of the Center 
for Science in the Public Interest. CSPI is an education and 
advocacy organization based in Washington that focuses on food 
safety and nutrition. We are supported largely by the 800,000 
subscribers to our Nutrition Action Healthletter and by 
foundation grants.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Jacobson appears in the Appendix 
on page 100.
---------------------------------------------------------------------------
    As we have heard earlier, CDC estimates that contaminated 
food causes 76 million illnesses and 5,000 deaths every year. 
Over the past decade several notorious outbreaks of foodborne 
illness, named after such companies as Jack-in-the-Box, 
Schwan's, and Sara Lee, have demonstrated that unintentionally-
contaminated food is all too common, all too deadly. More 
recently, the terrorist attack has spurred widespread concern 
about intentional contamination of our food supply and the 
government's ability to minimize that risk. Those concerns are 
not unfounded. Last year, a CDC committee warned that 
terrorists might try to contaminate our food supply with such 
pathogens as clostridium botulinum, and E. coli O157:H7.
    The recent National Academy of Sciences report agreed, 
explaining that biological agents could be produced quickly and 
inexpensively. We saw how easily bacteria can be used as a 
weapon when in 1984 members of a religious commune in Oregon 
contaminated 10 salad bars with Salmonella, sickening 751 
people. Be it bioterrorism or sloppy manufacturers, we are 
relying on old laws to regulate new hazards. The Safe Food Act 
of 2001, introduced by Senator Durbin, offers a much-needed 
corrective to one of the major defects in our Nation's food 
safety system.
    Food safety oversight is balkcanized among at least nine 
Federal agencies, from the Department of Agriculture to the 
Bureau of Alcohol, Tobacco and Firearms. That fragmented 
responsibility, compounded by inflexible statutory 
restrictions, results in many gaps, inconsistencies and 
inefficiencies in government oversight. For example, as we have 
heard many times over the past 5 or 10 years, makers of 
pepperoni pizzas get inspected every day, while makers of 
cheese pizzas get inspected only once every few years, even 
though both kinds of pizzas pose similar risks, I had not 
learned until today about open-faced versus closed-faced 
sandwiches, which takes this issue to ludicrous heights.
    Currently, the FDA, which has just 150 inspectors to ensure 
the safety of four million shipments of imported food, inspects 
less than 1 percent of those shipments. Eggs, depending on 
whether they are in the shell or processed, are overseen by 
either FDA or FSIS, and a third agency grades them for quality. 
Meanwhile, no agency is trying to prevent Salmonella 
contamination from ever happening back on the farm.
    For crops that are genetically engineered to produce a 
pesticide, the EPA evaluates the safety of the pesticidal 
chemical while the FDA reviews the safety of the whole plant 
except for the pesticide. EPA's process is open and mandatory, 
while the FDA's process is secret and voluntary. Frankly, that 
kind of jury-rigged system is nuts. Professor John Bailar of 
the University of Chicago, who authored a paper published by 
the National Academy of Sciences, concluded, ``Our country 
needs a single independent food safety agency. When 
bioterrorism is added to the mix, the case for prompt and 
sweeping change becomes compelling.''
    A sensible system, food safety system, would allow 
officials to deploy resources when and where they are needed 
most. For instance, judging from CSPI's database of foodborne-
illness outbreaks, foods regulated by the FDA caused four times 
as many outbreaks as do foods regulated by USDA. However, the 
FDA has only about one-tenth as many inspection personnel, and 
there is no way to transfer inspectors from factories producing 
lower-risk canned beef stew to packers distributing higher-risk 
fresh alfalfa sprouts. That mismatch between risk and resources 
has led CSPI and other consumer groups to call on Congress and 
the President to develop a single coherent food safety statute 
that would be implemented by a single independent food safety 
agency.
    CSPI strongly supports the Safe Food Act of 2001, which, if 
passed, would result in a major and long-needed upgrading of 
our food safety system. We also would strongly support a 
parallel and equally-essential effort to develop a unified food 
safety statute.
    Thank you very much, Senator, both Senators, for your 
continuing leadership to improve food safety and for giving me 
the opportunity to offer CSPI's views.
    Senator Durbin. Thanks, Dr. Jacobson. Mr. Cady.

   TESTIMONY OF JOHN CADY,\1\ PRESIDENT AND CHIEF EXECUTIVE 
         OFFICER, NATIONAL FOOD PROCESSORS ASSOCIATION

    Mr. Cady. Thank you, Mr. Chairman, for this opportunity to 
testify about our ability to ensure food security within the 
framework of our current regulatory system. My written 
testimony, which I will not read, outlines in greater detail 
our thoughts, not just on this subject, but also on the broader 
issue of whether we need a single food safety agency. I will 
make a few opening comments and look forward to your questions, 
sir.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cady appears in the Appendix on 
page 108.
---------------------------------------------------------------------------
    First, Mr. Chairman, I want to salute both you and the 
Ranking Member and former Chairman of the Subcommittee, Senator 
Voinovich, for your leadership on food safety issues. You have 
my commitment to continue to work with you and the Subcommittee 
on how we can best improve the management of our food safety 
regulatory systems.
    Mr. Chairman, the National Food Processors Association is 
the Nation's largest food-only trade association and its voice 
on scientific, technical and regulatory issues involving food 
safety. There are a lot of food-trade associations, as you 
know, which reflect the great diversity and reach of our 
industry, but NFPA's focus has long been on research, science, 
food safety, manufacturing practices and emergency situations 
for our 350-member food companies. We have special expertise in 
the area of food security, which has long been a top priority 
of our industry, specifically in the area of tampering and 
contamination.
    Mr. Chairman, we have great confidence in our food safety 
regulatory system for protecting the integrity of our food 
supply, both for domestic and imported foods. We believe both 
Secretary Veneman and Secretary Thompson and their respective 
agencies have done an outstanding job of responding to the 
tragic events of September 11. We are confident that they have 
worked closely with their regulated industries to ensure that 
the systems are in place to adequately address threats to our 
food supply. Through our association the industry has also 
created an alliance for food security, which is coordinating 
the industry's efforts and communications with Federal 
agencies.
    We recognize that the food safety system is not perfect. We 
have long advocated for more resources for the Food and Drug 
Administration to ensure it can perform its core mission. In 
particular, FDA's information tracking system for imported 
foods, called Oasis, needs to be updated. More research to 
develop better sampling and testing techniques are needed to 
get a more rapid response. We understand that the Bush 
Administration is advocating more inspectors at our borders and 
ports to make sure that nothing slips through, and I have been 
told that Governor Ridge will focus on food safety and food 
security as part of the new Office of Homeland Defense, where 
he will be looking at budgets and the need for new legislative 
authorities.
    Given the vast powers that FDA already has over imported 
foods, we do not believe, however, that additional authorities 
at this time are necessary, and any emergency regulatory 
actions taken during this period of crisis should have sunset 
provisions considered. It is also very important that we do 
nothing that has the unintended consequence of lessening 
consumer confidence in our Nation's food supply. Our Nation's 
outstanding food safety record has led to a high and justified 
level of consumer confidence in our food supply. It would do a 
serious disservice to consumers to send a message that our food 
supply is unsafe, especially in light of the tragic events of 
September 11 and the war in which we are now engaged. We must 
all watch what we say, how we say it, and understand that our 
words greatly impact the public.
    On your proposal for a single food safety agency, Mr. 
Chairman, we commend you for your thoughtful approach to a very 
difficult issue, NFPA, however, is not yet prepared to endorse 
this proposal. In fact, as I noted in our written statement, we 
believe all the objectives that you outlined in the bill can be 
achieved by better utilizing existing authorities, starting 
with the Cabinet Secretaries, to both coordinate and allocate 
resources and streamline overlaps in jurisdiction before 
seeking any kind of new legislation. A new management layer, 
which I see a single food agency to be, is simply not necessary 
at this time. Rather, we endorse a single food safety policy 
that would be implemented on a unified basis across the 
existing agencies.
    Thank you, Mr. Chairman and Senator Voinovich, and I look 
forward to your questions.
    Senator Durbin. Thanks, Mr. Cady. Mr. Chalk.

   TESTIMONY OF PETER CHALK, PH.D.,\1\ POLICY ANALYST, RAND 
                          CORPORATION

    Mr. Chalk. Mr. Chairman, and Members of the Subcommittee, 
thank you very much for this opportunity to provide testimony 
on this very important subject. I am a policy analyst at RAND 
who has spent most of the last 10 years studying terrorism. The 
views I will be presenting are my own and should in no way be 
reflected as representing RAND or of any of the sponsors of its 
research.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Chalk appears in the Appendix on 
page 113.
---------------------------------------------------------------------------
    Over the last 7 years considerable investments have been 
made in infrastructure protection within the United States, and 
this has led to an increasingly well protected infrastructure 
that now spans the ambit from conventional bombings right 
through to more exotic acts of biological terrorism. 
Agriculture, however, is one area where not too much attention 
has been paid in this regard, and I would suggest that this is 
problematic for two main reasons.
    Agriculture is absolutely critical to the economic, social 
and political stability of the United States. Certainly, in 
economic terms it is of utmost importance. It is the country's 
largest single employer, $50 billion is raised every year 
through agricultural exports. Cattle farmers and milk producers 
alone earn between $50 billion and $54 billion through meat and 
milk sales. The disruption of this highly critical sector would 
cause a tidal economic wave effect that would impact, not only 
on the sector itself, but also on the individual and the 
consumer.
    For a number of reasons, agriculture does remain vulnerable 
to either deliberate acts of sabotage or indeed, to naturally 
occurring outbreaks.
    First, the disease susceptibility of animals in general has 
risen as a result of biotechnic modifications that have served 
to lower the natural disease resistance of animals to 
pathogens.
    Second, there are many more diseases that are both highly 
contagious and infectious to animals than is the case with 
human beings. We know of at least 22 that currently exist. Most 
of these are also environmentally hardy and many livestock are 
not routinely vaccinated against them.
    Third, diseases tend to spread very quickly amongst animal 
populations simply because of the intensive and concentrated 
nature by which they are housed, bread and transported within 
the United States. A typical dairy can be expected to have at 
least 1,500 lactating cows, with some of the larger facilities 
having between 5,000 and 10,000 animals. Stopping an outbreak 
of a highly infectious disease at any one of those facilities 
would be very difficult.
    We also have a proliferation of food processors--
particularly at the lower end or the smaller end of the scale--
that lack adequate internal quality control, may not have very 
viable product recall plans; and also, largely do not undertake 
effective screening of seasonal employees, which exacerbates 
the potential of insiders getting in. I should have stress that 
this problem exists at the medium and lower end of the scale. 
And finally, the increased production of genetically modified 
foods has also increased the possibility of extremists and 
radicals carrying out acts of violence against GM foods, and we 
have certainly seen aspects of that in Europe.
    The impact of a major agricultural disaster in this country 
would be enormous. Economically, we would have effects that 
could cross at least three levels: Direct economic impacts 
resulting from containment procedures and eradication 
procedures; indirect economic effects resulting from 
compensation paid to farmers who were affected by the loss of 
their products--in the UK, the recent foot-and-mouth disease 
outbreak has resulted in over $1 billion in compensation costs 
alone being paid; and finally, international costs in the form 
of protective trade embargos that are imposed by major trade 
partners against the affected country, in this case, the United 
States.
    Beyond that we would also probably get a loss of political 
support and confidence in government. A major agricultural 
disaster would undoubtedly cause people to lose confidence in 
the food supply, and it could also cause them to question the 
effectiveness of existing WMD preparedness in general. In 
addition, the actual mechanics of instituting a viable response 
to a major agricultural disaster could elicit public criticism 
in the form of reaction to mass culling and disposal 
operations.
    Finally, we could have social instability as a result if an 
act led to a major public health scare, and here we are talking 
about a foodborne disease outbreak or the introduction of an 
animal disease outbreak that is also zoonotic in its 
implications.
    A number of areas do need to be substantially increased and 
enhanced in preparation for public infrastructure protection of 
agriculture. We need more diagnostic training. We need an 
overhaul of the veterinarian curriculum with more emphasis 
given on large-scale husbandry, better standardized links 
between the criminal justice communities, intelligence 
communities and the USDA.
    I do support your own suggestion here of instituting a 
single agency to stream line and rationalize the oversight for 
food safety within this country. Thank you very much.
    Senator Durbin. Thank you, Mr. Chalk. Mr. Molpus.

TESTIMONY OF C. MANLY MOLPUS,\1\ PRESIDENT AND CHIEF EXECUTIVE 
           OFFICER, GROCERY MANUFACTURERS OF AMERICA

    Mr. Molpus. Thank you, Mr. Chairman and Members of the 
Subcommittee. I appreciate the opportunity to appear before you 
this afternoon and compliment the Chairman and Members of the 
Subcommittee for giving us this opportunity for an exchange of 
views on the important issue of food safety. The testimony I am 
providing this afternoon is endorsed by a number of additional 
food trade organizations, specifically, the American Frozen 
Food Institute, the American Bakers Association, International 
Dairy Foods Association, and the Snack Food Association.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Molpus appears in the Appendix on 
page 127.
---------------------------------------------------------------------------
    GMA-member companies make and market the world's best known 
brands of foods and beverages around the world. Our members 
represent approximately 90 percent of the branded food and 
beverage products sold in the United States. So nothing is more 
fundamental or has a higher priority for us than food safety.
    The United States, as the Chairman indicated in his opening 
remarks, has the safest, most abundant and varied food supply 
in the world. We have achieved this enviable position, not by 
luck or accident, but through the commitment of the food and 
agriculture industries and generations of dedicated public 
servants. The achievements of this partnership are reflected in 
the high confidence that American consumers have in the safety 
of their food supply. According to the Gallup organization, 82 
percent of consumers have confidence that the Federal 
Government adequately ensures the safety of food. That consumer 
confidence is not misplaced. We do, in fact, have a remarkably 
good food safety record.
    The system we have is not perfect however, and it can be 
enhanced, but before we embark on a radical restructuring of 
the food safety regulatory system, we believe we should be 
absolutely convinced that there is no better way to address the 
issues of concern. During the Clinton Administration, the 
President's Council on Food Safety studied this issue and 
concluded that, ``Reorganization by itself will not 
significantly change the food safety system's capability to 
assure public health protection,'' and that, ``No single 
structure for the food safety system provides a perfect 
solution.''
    Today's food safety system has evolved into a sophisticated 
science-based system that appropriately allocates 
responsibility among several Federal agencies. The allocation 
of responsibility among multiple agencies is not inherently 
wrong or misguided. Rather, it reflects the informed judgment 
of lawmakers and government food safety officials over many 
decades that different sectors of the food supply present 
different challenges and, thus, call for different inspection 
expertise and different focus of regulatory resources. When 
fundamentally different regulatory systems are called for, 
dividing responsibility among agencies represents a logical 
approach. In short, food safety regulation is not a one-size-
fits-all situation.
    We should not underestimate the challenges that would be 
faced in combining all food safety regulatory activities. From 
the experience of many of our member companies, it is difficult 
and disruptive to implement a merger. Combining organizations 
inherently means a period of uncertainty, distraction, loss of 
focus and efficiency. Now, perhaps more than any time in our 
history, we need to stay focused on the job at hand. Having 
said that, this does not mean that we seek to maintain the 
status quo. There is room for improvement of our current system 
and we have four recommendations.
    First, consumers in the food industry are best served by 
strong food safety agencies which develop policy based on sound 
science. I would like to focus particularly on FDA. Although 
the responsibilities of the FDA have increased dramatically 
over the last several decades, the funds appropriated to FDA 
for its food safety-related functions have failed to keep pace. 
GMA has already taken a leadership role in this area. For some 
time we have provided leadership to a food industry coalition 
whose objective is to increase the awareness of more resources 
at FDA.
    We have at GMA a board-led task force of CEOs committed to 
helping assure that the case for additional FDA resources is 
made. For the past several years GMA has urged Congress to 
fully fund increases in FDA's budget for food safety, and I 
think it is worthwhile mentioning today that the Congress, with 
the help of several appropriators on the Subcommittee, 
including the Chairman, is about to, for the first time, 
approve the FDA's full budget request.
    Second, our food safety system must emphasize science and 
research. We must identify and fight the true causes of 
foodborne illness with the right scientific weapons. Good 
science has always been a critical component of sound food 
safety regulation, and it is incumbent, therefore, on all of us 
with the shared commitment to effective food safety regulations 
to think creatively about ways to bring more science to FDA, 
and better scientists. We might do this through a fellowship 
program, such as what doctors go through at NIH and come out of 
NIH. We might have a fellowship program bringing young 
scientists to FDA.
    Third, collaboration, coordination and consultation should 
be a full-time commitment for all our Federal and State 
regulators. The Secretaries should make it absolutely clear as 
they carry out their shared missions that their job is to 
eliminate duplications and inefficiencies. A good example has 
been the joint agency work on food-safety research.
    Fourth and finally, one of the most dramatic changes that 
occurred with regard to our food-safety supplies is the extent 
to which we now have a global marketplace. FDA regulated 
products enter the United States from more than 100 countries. 
We must ensure that our regulatory agencies have more resources 
and tools to effectively regulate imported products.
    In conclusion, GMA and its member companies are firmly 
committed to the continued integrity and effectiveness of our 
food safety regulatory system. No one has a greater stake in 
the credibility of the system than our member companies. We are 
open to considering a wide range of ideas and proposals to 
improve our current systems. But before we scrap a system that 
is regarded as the best in the world, we should fully explore 
strategies to enhance the system through adequate funding, 
better coordination, the best science, and continued 
innovation.
    Thank you, Mr. Chairman.
    Senator Durbin. Thank you, Mr. Molpus. Mr. Hammonds.

  TESTIMONY OF TIM HAMMONDS,\1\ PRESIDENT AND CHIEF EXECUTIVE 
               OFFICER, FOOD MARKETING INSTITUTE

    Mr. Hammonds. Chairman Durbin and Senator Voinovich, thank 
you for inviting me here today. My name is Tim Hammonds and I 
am the president and CEO of the Food Marketing Institute. FMI 
is the national trade association representing the retail 
supermarkets and food distribution industry. I will summarize 
here today, but with your permission, will submit my full 
statement along with FMI's board-adopted policy in support of 
designating a single food agency for your record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hammonds with an attachment 
appears in the Appendix on page 138.
---------------------------------------------------------------------------
    In our view, this hearing is especially timely because our 
current Federal food safety system is ill-equipped to deal with 
today's challenges. Clearly, no one now designing a regulatory 
system to maintain the wholesomeness and integrity of our food 
would ever design anything remotely resembling what we have 
today. The case for designating a single food agency, then 
centralizing resources and responsibility, was compelling in 
May of the year 2001 when FMI's board of directors adopted that 
position. The need for such a system now is imperative.
    We believe this could be accomplished without disturbing 
the oversight authority of the current committees of 
jurisdiction in the House and the Senate. You will note that we 
are on record in support of designating a single food agency, 
not in support of creating an entirely new agency. We believe 
too much expertise would be lost, too much of our existing 
credibility would be squandered, and too much time would be 
wasted if we attempt to create an entirely new agency from 
scratch. In our view, the best course of action would be to 
centralize resources, responsibility and authority within one 
of the existing agencies, then elevate the status of this group 
to a level appropriate to our new challenges.
    In the wake of the attacks on America on September 11, we 
have begun to look for vulnerable areas in our society. The 
safety of our food supply is a legitimate subject for inquiry, 
but under that microscope, it is clear that now when additional 
funds are needed to ensure food security, we can ill afford the 
current system's lack of coordination and the resulting waste 
of resources. Should a crisis arise, either real or 
manufactured as a hoax, the deficiencies of our current system 
would become glaringly obvious. For example, let's assume a 
tampering hoax is staged. The public needs rapid reassurance 
from a credible source. Under current policy that could easily 
involve multiple government agencies.
    Since it is rare that a single agency has complete 
jurisdiction over the entire scope of a major food safety 
problem, it has been our experience that none of the agencies 
step forward in times of crisis. It becomes impossible to find 
a spokesperson who can rapidly clarify the facts and reassure 
the public. Far more typically, the public is faced with a 
lengthy delay while our overlapping bureaucracies creep into 
some sort of action, culminating eventually in a message of 
reassurance to the public.
    To the issue of whether a coordinator would be enough to 
oversee the existing agencies, we have an open mind on that, 
but we are doubtful. Although some improvements could certainly 
be made, there would still be overlapping jurisdictions and 
gaps.
    Let me emphasize that none of this is due to the lack of 
skill or dedication of those working within our various food 
safety agencies. Quoting from the 1998 report of the commission 
to ensure safe food from production to consumption, ``These are 
dedicated, capable people, but they operate within an 
institutional framework that is out of date and poorly designed 
to accomplish the critical goals that food safety regulation in 
this field must achieve. The increasing complexity of food 
production and delivery and the exploding internationalization 
of the U.S. food supply impose added pressures on the Federal 
regulatory apparatus which was constructed in similar times.''
    Our FMI board of directors is open to other solutions that 
would improve food safety oversight; however, we find it 
difficult to come up with a simpler or more direct approach 
than designating a single food safety agency. Thank you, Mr. 
Chairman and Members of your Subcommittee, for the opportunity 
to speak with you today on behalf of the members of the Food 
Marketing Institute.
    Senator Durbin. Thanks, Mr. Hammonds.
    I would like to ask Mr. Cady and Mr. Molpus a question, 
because from your testimony you appear to be skeptical of this 
notion--I guess that is a kind way of putting it, but let me 
just ask you this, Mr. Cady, first: Do you agree that what ever 
food safety inspection standard we have, it should be based on 
science?
    Mr. Cady. Well, coming from a science organization, sir, 
the answer is obviously yes. It needs to be based on science. 
It needs to be risk-based. It needs to be properly budgeted 
for, which we have not done over the years, especially in the 
FDA arena. It also needs to be one that has a policy that 
emanates from science and risk assessment, that is permeated 
throughout a unified food safety system.
    Senator Durbin. Do you think our current system is based on 
science?
    Mr. Cady. I believe that the majority of our system is 
currently based on science, but I caution that I do not believe 
we have gotten far enough into the risk-assessment arena, where 
we can make better use of the resources that we do have 
available. But I think the science that is done by the agencies 
has improved tremendously over the years and I think that the 
agencies coordinating activities are making it even better.
    Senator Durbin. Can you then tell me the scientific basis 
for daily inspections at the U.S. Department of Agriculture and 
quadrennial inspections through the Food and Drug 
Administration?
    Mr. Cady. Well, I think, again, if you look at the risk 
involved in the Department of Agriculture inspections--and 
there are historic issues, sir, that I am not saying we cannot 
take care of and that the department could not make better--but 
there are historic issues based on animals that are being 
processed. Eighty percent of my members' food, however, is not 
regulated by FSIS, and so you look at--Mr. Jacobson even 
mentioned--somebody who is making a high-acid tomato product in 
Ohio, as an example. Is that the same as some other product 
that perhaps has more risk than that does? I think we have not 
made good use of that particular tool in the risk-assessment 
area.
    Senator Durbin. You have made several points and I do not 
want to blend them together. I am trying to keep them separate. 
The point about funding, adequate inspection and the like is 
certainly one that no one argues with, I do not believe. But I 
do believe that Dr. Jacobson's initial point is the important 
one here. The current system is not based on science. The 
current system is so disparate in terms of the application of 
inspection, for example, that it is hard for me to rationalize 
why daily inspection of agriculture through the Department of 
Agriculture, Poultry, and Meat makes sense, but inspection once 
every 4 or 5 years through the Food and Drug Administration 
still makes sense.
    I have to tell you that I think what drove the USDA into 
daily inspection was not the wisdom Mr. Molpus refers to, but 
Upton Sinclair scared Americans into finally initiating some 
sort of a Federal responsibility for inspecting meat. If you 
ever read it, as most of us have, you can understand why. 
Chicago has changed a lot, incidentally, since the book was 
published. But, there just is not any consistent science here.
    Mr. Cady. I disagree, of course, with Mr. Jacobson on that. 
I think the science is there. I am not sure when you get into 
the inspection system--what I understand you are saying is--I 
think the science is there, how it is carried to the inspection 
system, throughout the inspection system, I guess is what your 
question is. Again, if you have limited dollars and you have 
limited inspectors, you have to go to a risk-based system, and 
that makes better use of your resources, and we have not done 
that fully.
    Senator Durbin. You said in your testimony no additional 
authority is necessary. Now, that is a very broad statement in 
light of what we just heard from former Secretary Glickman----
    Mr. Cady. No, I was talking about over the ports and that 
particular area. I do not believe--again the lawyers have to 
argue this out and I am not a lawyer, but from what our 
discussions have been on this with lawyers, we believe that 
they can do what they need to do today at the ports in order to 
beef up security.
    Senator Durbin. Let's go to a specific point then, so I can 
have your testimony on the record. Former Secretary Glickman 
has noted the fact that the agencies, USDA and FDA, do not have 
authority today to deal with products that have been subject to 
epidemiological contamination as opposed to pathogen. Do you 
believe that the law should be changed so that they have that 
authority?
    Mr. Cady. I think we have to look at those authorities and 
we have to decide whether or not that is good for the system 
and good for the whole food safety system. Please remember that 
the industry spends millions and millions of dollars a year on 
food safety systems of their own and we get into these 
situations such as civil and monetary penalties, and criminal 
penalties, which exist today for adulterated food. The question 
I have always had is that when somebody goes out--and this has 
happened--and makes a bad decision on shutting down a plant 
under a mandatory system, let's say, what recourse does that 
particular plant or company have if the decision is not 
correct? Essentially they are out of business. So, my point is, 
it needs to be looked at. If they need authority in that 
particular area, then I am not against opening it up and 
talking about it at all.
    Senator Durbin. Well, I would like to ask Mr. Molpus. You 
said something in your testimony--it is part of the record 
now--and it says that the current system--you were referring to 
the current system--reflects the informed judgment of law 
makers and government officials over many decades, that 
different sectors of the food supply present different 
challenges and thus, call for a different inspection and 
regulatory system. That seems to suggest that there is some 
sort of divine plan here behind our food and safety inspection, 
or at least a coordinated--let's use that, a coordinated 
thinking and ``wisdom''--you used the word wisdom--behind our 
current system. Do you find wisdom in a system that treats an 
opened-faced sandwich different than a closed sandwich?
    Mr. Molpus. Well, with all due respect, Mr. Chairman, the 
Congress must find that to have some wisdom. What I think has 
been said here numerous times today--and I think it bears 
repeating--many of these issues flow from the fact that the 
Congress, in passing the statutes that created the inspection 
systems for food in total, created different statutes with 
different laws that affect different segments of the industry. 
Congress created, as you eloquently alluded to, the Meat 
Inspection Act after Upton Sinclair's in ``The Jungle.'' As you 
may remember, I was president of the American Meat Institute in 
the first life where we met, and that is a different statute 
than the one that is dealing with other foods.
    And to your point with the questioning of Mr. Cady, the 
intensity that we want in a meat plant every day, intensive 
inspection that is mandated by law--that can be changed by the 
Congress. It will not be changed by bringing all the agencies 
together. We have a lot of fun poking fun at pizza. Pizza has 
been one of the most successful products in the history of the 
American food industry. It has managed to survive this quagmire 
of government inspection. It has been a tremendous success with 
consumers and in the industry, and combining the agencies, 
putting all the agencies in one house, would not solve that 
pizza problem. It would not solve, I do not think, the open-
faced sandwich problem. If there is any point that needs to be 
made here today, it is underlying statutes--and that is what I 
was trying to make in my testimony--it is underlying statutes 
separately passed by the Congress that drive different types of 
approaches to inspection.
    Senator Durbin. That is why we are here today, those 
underlying statutes and that so-called wisdom that brings us to 
this point where we are so embarrassed today by what we have. 
Let me ask you, as I have asked Mr. Cady, Secretary Glickman 
makes the point about epidemiological contamination. Do you 
think the FDA and USDA should have authority when it comes to 
epidemiological contamination as it does for pathogens?
    Mr. Molpus. Well, essentially we are not regulated by USDA. 
I have seen nothing that makes me think FDA needs that 
authority or I did not hear them say they desired that 
authority. I do not think we have had those kind of issues with 
the type of foods that FDA regulates.
    Senator Durbin. Mr. Molpus, based on Dr. Schwetz's 
testimony, I do not see how we can take that position. He has 
said in his testimony that food is a medium for bioterrorism. I 
do not want to create panic, but I want to be realistic. I do 
not want something to happen tomorrow and hear, ``Why didn't 
you even talk about it in Congress the day before?'' That is 
why I think that what the Secretary has suggested is a 
reasonable suggestion, to give these agencies the authority to 
deal with bioterrorism. God forbid we ever need it, but they 
should have that authority. Should they not?
    Mr. Molpus. Well, I will tell you this, Senator, they have 
never talked to us about needing that authority that I am aware 
of. It has never been an issue in the regulation of the foods 
that I represent. If it is an issue, then we are willing in 
these particular times to sit down with the agency and 
rediscuss and reevaluate some of these legislative needs. They 
may be on an emergency basis, some things we need to do. 
Whether that is one of them or not, I could not tell you today.
    Senator Durbin. I think that is a reasonable position. Dr. 
Jacobson, could you comment on that suggestion from Secretary 
Glickman about the epidemiological protection?
    Mr. Jacobson. I am not sure what the underlying laws here 
are, but my sense was that Secretary Glickman was saying if a 
food is linked to health problems without proof of a particular 
organism, then the government should be able to take action. 
And I think that it is patently obvious that government should 
be able to take action, because it might take weeks or months 
to track down a particular organism--like we saw with mad cow 
disease. It is a new organism in our experience.
    I would like to step back, if you do not mind. I am very 
disappointed that the industry is not supporting the best 
possible food-safety system. Yes, we need changes in the 
statutes and we need reorganization, and I think former 
Secretary Glickman was very clear about this. Neither by itself 
will work. We need to do the two things sequentially or at the 
same time, but move in that direction. If there were a tragedy 
where you have FDA and FSIS fighting over whether the beef 
broth was 1 percent or 3 percent beef, and so we do not know 
who is going to regulate it, it would be a crying shame that 
actions were not taken because we had this crazy statutory 
patchwork and bureaucratic mess. And if we did have that 
tragedy, I think the food industry and opponents of action in 
Congress would feel extraordinarily embarrassed.
    Senator Durbin. I think you are right. I am going to turn 
it over to my colleague here, Senator Voinovich, and I will 
just make one comment. I find that there is a resistance in 
some areas to the changes which we are discussing. When it 
comes to government agencies, there is only one thing that can 
bring someone who is involved in this area around to my point 
of view and that is leaving civil service. Once they are out of 
the private sector, they seem to think that this is nothing but 
the best idea in the world.
    Senator Voinovich.
    Senator Voinovich. In the high-risk series update published 
January 2001 by the General Accounting Office--and by the way, 
they put human capital as a new high-risk area--they cite the 
Department of Agriculture's organizational culture, especially 
in its role of overseeing food safety, as an example of an 
agency that faces human capital challenges. Although food 
safety is not deemed a high-risk issue, GAO has listed food 
safety oversight as one of the major management challenges 
facing the Department of Agriculture.
    GAO has explained that they feel the problem is not 
isolated to the Department of Agriculture, but rather than 
identifying it as a governmentwide problem, they chose to focus 
on the USDA. Now, these problems have been around a long, long 
time. I would be interested, Mr. Cady, and Mr. Molpus, what 
suggestions have your organizations made over the years to 
these agencies, and what kind of response have you received? I 
know you mentioned, finally, that they funded the budget.
    Senator Durbin. This year.
    Senator Voinovich. This year--but what recommendations have 
you made and what kind of response have you gotten back over 
the years, and what makes you think that now that we have an 
additional challenge that things are going to be different in 
terms of coordination between the agencies and the commitment 
of resources that need to be made? You mentioned--I think Mr. 
Molpus, you talked about consumer--more resources; science and 
research coordination; regulated, updated products and so 
forth. They are all out there, and what is really being done? 
And how do you respond to the fact that it has not been done 
and it does not require some new way of accomplishing this 
issue?
    Mr. Molpus. Senator, I think the FDA has made some 
considerable progress. I think over the last 4 years there has 
been a significant or a noticeable decrease in the diagnosed 
cases of Salmonella and Listeria. They have set forth some 
targets for 2005, which, in reduction of these foodborne 
illnesses, they have almost reached those targets already. 
There is continual innovation and progress. I think what we are 
saying from industry is, it could be faster. There could be 
more resources. They have been a resource-starved agency, and 
with additional resources and the application of better and 
improved science and technology, and given that we all say that 
they are best in the world, I think they can get the job done 
without going through the distraction of a structural 
reorganization.
    Senator Voinovich. But the fact is, they have not gotten 
the job done. It is an issue of priority in terms of somebody 
coordinating it and saying that this is a national problem.
    I was interested in Mr. Hammond's testimony. You are saying 
that we have had outbreaks. Why don't you share with me an 
example of a couple of them where you could not get somebody to 
step up to the table and clarify it? If we had something like 
this right now, how would we deal with it in a way that the 
public would feel confident that something was happening, Mr. 
Hammonds?
    Mr. Hammonds. Well, almost any of the outbreaks would serve 
as an example. Perhaps the clearest was our Chilean grape 
situation, which in hindsight turned out not to be a huge 
problem, but at the time it was impossible for us to find 
someone from the government willing to step forward and 
reassure the public. But retailers and T.V. news cameras can 
always find a supermarket. Retailers turned out to be the ones 
out front on that, and the ones doing as best we can to give 
the public reassurance.
    I would point out that in the middle of the food 
distribution system, groups tend to be regulated by single 
agencies or have very clear lines of authority. When you arrive 
closer to the consumer and you get into the supermarket, one 
way or another we are regulated by everyone. So we see the 
kinds of overlaps, the kinds of gaps and therefore, the kinds 
of time we waste trying to get a credible analysis of the 
situation and a reassuring statement out of the government. So, 
perhaps we deal with a more difficult problem than those 
earlier in the distribution system, but it is a problem.
    Senator Voinovich. The manufacturers are saying the system 
is OK, and those of you that are out there, retailers, say this 
system is not working, and you're concerned that you get the 
wrong information out there and you cannot move in on it and 
this will have a devastating impact on your businesses. People 
stop buying whatever the case may be, and it just ratchets 
down. It is interesting with the airlines, the enormous 
cascading that has gone on in this country in other areas. 
Everyone is saying now, if you really want to do something 
about the economy, get the planes flying and get them up in the 
air and make people feel secure. One or two items like this 
just have--it was the egg thing at one time and it just ripples 
across. So, there seems to be a difference of opinion here 
between Mr. Molpus, Mr. Cady and you, Mr. Hammonds, and you are 
all on the private sector side of this thing.
    Mr. Molpus. It is rare that we disagree. The point that it 
goes to we have a different relationship with the agencies than 
the supermarket industry and a lot of this goes to the view and 
experience that we have had with the agency versus someone 
else's experience. We have not had the experience of having 
indecisiveness about who is in charge during the time of any 
sort of a food safety crisis that we have dealt with. We are 
looking at throwing out some atypical examples and coming to 
conclusions, rather than looking at the vast majority of 
incidents. It is fairly clear. You can talk about the pizza 
issue, but it is fairly clear that the products are at USDA and 
that they deal with them through the system and the products 
that are at FDA and that they deal with them.
    Mr. Jacobson. Do not forget the $100 billion worth of 
products whose labeling and safety is overseen by the Bureau of 
Alcohol, Tobacco and Firearms. The Treasury Department does not 
put this at the top of its list when you are asking the 
Secretary for what the issues are. We have seen cases where 
beer was contaminated with nitrosamines, which are cancer-
causing substances. Wine and liquors were contaminated with 
urethane, another cancer-causing substance, and these 
substances developed during the manufacturing processes. Wine 
contains sulfites, which is deadly to a small percentage of the 
population. It causes acute reactions.
    When we went to the Bureau of Alcohol, Tobacco and 
Firearms, they did not have the foggiest idea of what to do 
about these things. It took a fair length of time before they 
learned how to coordinate with the FDA. That may be at the 
extremes, but we are talking about a lot of product being 
consumed that falls largely outside the ambit of FDA or USDA. 
That is something I think should be expressed in your bill. 
But, I think Mr. Molpus is right. Usually things work out fine 
and we do have a pretty safe food supply in this country. Most 
people do not die of food poisoning, just 5,000 a year. Is that 
OK? We need to be concerned about where the problems are and 
maybe it is one-tenth of 1 percent of all the food or decisions 
that are being made, but that is where the problems are going 
to occur. That is what we should anticipate and prevent.
    Mr. Cady. I would like to make a couple of comments, if I 
could. One, my association is responsible for working with our 
companies relative to recalls when they occur, and in the 14 
years that I have been associated with this, I have never had a 
problem determining or having the agencies determine as to who 
is responsible or in charge of that particular recall. So, I 
can just say that I have not seen that fall through the crack 
in terms of responsibility.
    You made a couple of statements earlier, both of the 
Senators did, relative to why doesn't this thing work then, if 
we think it is such a great system. I think it is like anything 
else. If you have two companies that merge, there is a CEO that 
drives the issue in terms of bringing those two companies 
together, not only in terms of their culture, but also in terms 
of their production issues, marketing issues. What has not 
occurred in the government aspect of managing this system, in 
terms of coordination and communication, is the accountability 
taken over by, and I start at the Secretary level, to make sure 
that the coordination and the communication exists. What we 
really do is, we usually talk about it at these type of 
hearings and the Secretaries may talk about it, but it gets 
pushed down to the working level agencies that actually do it, 
and it is harder to do that.
    I think that we need my suggestion, in terms of trying to 
clear up some of this pizza issue, which I love to hear about--
I do not think it is a food safety issue. I think it is a 
department issue, in terms of who should be responsible for 
pizza, which is a great product, but it is not a food safety 
issue. But, I think from that you can get a lot more out of 
this system. Are there some legislative things that need to 
change? Probably. Are there some department responsibilities 
that could be put together? Probably. Are there better ways we 
can do risk assessment? Certainly. But, I think people have to 
focus on it and carry it through, and I do not believe in my 
tenure in this town that that has occurred.
    Senator Voinovich. Well, the question I have is, and I 
challenge you today, is to come up with those recommendations 
about the things that you think need to be done in terms of 
coordination, in terms of resources and some of the things that 
you have talked about now and in your testimony.
    Mr. Cady. We will do that.
    Senator Voinovich. And, to see if you can get that kind of 
attention given to it--I have, and I have been here a short 
time--but, getting agencies to coordinate their activity around 
here is very, very difficult.
    Mr. Cady. Well, let me add that we brought up the EPA a 
little while ago. One of the concerns I have with going to a 
single food agency from a government bureaucracy perspective is 
that I look at the EPA, and after 30 years--and you go back to 
see what it was supposed to do and how much was supposed to be 
encompassed in that--and I can tell you that in my 
relationships with the EPA as a new agency now of 30 years, the 
coordination and communication amongst and between is not 
particularly good--I am not sure how it was before then. I was 
not here at that time--but it has not been that terrific 
because we have a new agency.
    I also think we need to talk about food safety from a 
political perspective, Mr. Chairman. Food safety cannot be 
politicized and I am concerned about what a single food agency, 
at the end of the day, headed by a politically appointed 
administrator, would amount to, and I think that----
    Senator Voinovich. If your analogizing it to EPA, I agree.
    Mr. Cady. That is my point, sir. That is how I feel about 
it.
    Senator Durbin. I might just say in defense of the EPA----
    Mr. Cady. OK, Senator.
    Senator Durbin. The standards for air and water quality 
over the last 30 years dramatically improved. We focused our 
resources on a mission and we really achieved a lot. There is 
more to achieve and you will find, I think, some bureaucratic 
tangles in virtually every single agency.
    Mr. Cady, you talk about a CEO driving this kind of 
combination. We may have that in place. As quoted earlier, 
Presidential candidate George W. Bush was in favor of this 
concept that we are talking about today and I have spoken to 
him about it. He understands it then and now, and I think in 
the context of September 11, understands there is a new 
dimension to it. I might also add, as I did earlier, I think 
Governor Ridge is going to have some voice in this, as he 
should, to talk about whether or not this is part of the 
security of our Nation. I trust Tom Ridge a lot, because I have 
known him for so long, and I hope as soon as he can get his 
head above water that I can talk to him about this, too.
    Mr. Cady. I think you will see that happen, and food 
security and food safety, I think, is going to be a large part 
of his focus once he gets organized.
    Senator Durbin. Dr. Chalk, before we break here, let me go 
back to some of the points you have made, and one of them I 
felt was particularly important when it came to our 
agricultural exports being such a large part of American food 
processing in agriculture. I think the point you made here is 
the share of products sold overseas is more than double that of 
other U.S. industries. So one of the points I made early on was 
the hope that this is not just a monologue in the United 
States, but becomes a dialogue with other countries, so that we 
can start establishing standards one to the other, with some 
hope that we can harmonize the way we produce food so that it 
is safe and secure as it crosses borders. I do not know if that 
is the point that you are alluding to as well.
    Mr. Chalk. Absolutely, and I think that any initiatives 
that are taken on that basis are overdue and only to the good. 
One only has to look at the numerous examples of countries that 
have been affected by major animal disease outbreaks: Taiwan, 
the United Kingdom recently, Argentina this year, to catalog 
the enormous economic destruction that can be wrought on those 
countries, not only in the term of immediate protective 
embargoes, but the ripple effect that can go on for many years. 
Taiwan is still suffering from the 1990-1997 outbreak, and 
actually has not recovered. So, I think that any institution of 
cross-border standardization has to be part of the overall 
solution, particularly in a globalized world.
    We are no longer dealing with countries that can view what 
occurs within their own borders stopping at that border. We are 
in an international system. Where the trading of commodities is 
more global and rapid than ever. Therefore, it is incumbent 
that we do have some sort of globalized or at least 
regionalized standardization across borders.
    Senator Durbin. Can you imagine that first meeting with the 
EU when we sit down and say, in our wisdom, based on our view 
of science, we think that a whole egg should be inspected 
perhaps once every day and that a broken egg inspected once 
every 4 years? When you get down to it, there is no way we can 
say that with a straight face and that reflects the current 
system in America.
    The last question I have for you, Dr. Chalk, is you make a 
point here about confidence in government, and I think what has 
happened in Europe is instructive of where we are today. I 
think there are some parallels here, because in Europe, 
government did not respond to a very serious concern of 
consumers, whether it was BSE or antibiotics in animal feed or 
some of these other concerns that people had, GMOs for that 
matter, and as a result the stage was taken over by people who 
did not bring science to the party. They brought a lot of fear 
to the party. As a result, I think, many of these government 
agencies were discredited in Great Britain and in the European 
Union. Now they are struggling to re-establish their 
credibility.
    Well, we have a new world, too. We have a new challenge 
where I think consumers are going to look to us. What have we 
learned from September 11 based on some of the things we have 
heard in the testimony at the hearing today? What are we going 
to do, as a government, to respond to what people are 
legitimately concerned about? Sadly, bioterrorism is one of 
those that is back on the stage. I hope we have a credible 
governmental response so that people believe they can have 
confidence, not only in their government, but equally 
important, or more important, in the safety of our food supply.
    I will just close as I started. We have the safest food 
supply in the world. It bears repeating. We can do better and 
what we have heard today are, I think, some suggestions and 
examples of ways that we can improve it. I want to thank all 
those who attended. I want to announce that the record of the 
hearing will remain open for 1 week for Subcommittee Members to 
submit statements or additional questions for witnesses.
    I thank my colleague, Senator Voinovich, for joining me.
    Senator Voinovich. Can I just make one last comment?
    Senator Durbin. Certainly.
    Senator Voinovich. I was quite pleased to hear that the 
Department of Agriculture and the Food and Drug Administration 
are working together with the administration. That was very 
comforting to me. I would hope that those of you who represent 
the industry would be making your recommendations also about 
things that you see that are out there that we ought to be 
concerned about, because you are actually out on the front 
lines dealing with these problems. I think your input would be 
very, very important and I am sure well-received.
    Mr. Cady. We have a process going now just doing that in 
terms of the alliance that are running, in terms of 
information, working with the government, working with both 
agencies, so that the communication is flowing both ways. And I 
think it is going to work well, sir.
    Mr. Molpus. The conversations with FDA are daily.
    Senator Voinovich. Good. Thank you.
    Senator Durbin. Thank you, witnesses. I thank you, Senator 
Voinovich. The Subcommittee stands adjourned.
    [Whereupon, at 3:20 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T6804.001

[GRAPHIC] [TIFF OMITTED] T6804.002

[GRAPHIC] [TIFF OMITTED] T6804.003

[GRAPHIC] [TIFF OMITTED] T6804.004

[GRAPHIC] [TIFF OMITTED] T6804.005

[GRAPHIC] [TIFF OMITTED] T6804.006

[GRAPHIC] [TIFF OMITTED] T6804.007

[GRAPHIC] [TIFF OMITTED] T6804.008

[GRAPHIC] [TIFF OMITTED] T6804.009

[GRAPHIC] [TIFF OMITTED] T6804.010

[GRAPHIC] [TIFF OMITTED] T6804.011

[GRAPHIC] [TIFF OMITTED] T6804.012

[GRAPHIC] [TIFF OMITTED] T6804.013

[GRAPHIC] [TIFF OMITTED] T6804.014

[GRAPHIC] [TIFF OMITTED] T6804.015

[GRAPHIC] [TIFF OMITTED] T6804.016

[GRAPHIC] [TIFF OMITTED] T6804.017

[GRAPHIC] [TIFF OMITTED] T6804.018

[GRAPHIC] [TIFF OMITTED] T6804.019

[GRAPHIC] [TIFF OMITTED] T6804.020

[GRAPHIC] [TIFF OMITTED] T6804.021

[GRAPHIC] [TIFF OMITTED] T6804.022

[GRAPHIC] [TIFF OMITTED] T6804.023

[GRAPHIC] [TIFF OMITTED] T6804.024

[GRAPHIC] [TIFF OMITTED] T6804.025

[GRAPHIC] [TIFF OMITTED] T6804.026

[GRAPHIC] [TIFF OMITTED] T6804.027

[GRAPHIC] [TIFF OMITTED] T6804.028

[GRAPHIC] [TIFF OMITTED] T6804.029

[GRAPHIC] [TIFF OMITTED] T6804.030

[GRAPHIC] [TIFF OMITTED] T6804.031

[GRAPHIC] [TIFF OMITTED] T6804.032

[GRAPHIC] [TIFF OMITTED] T6804.033

[GRAPHIC] [TIFF OMITTED] T6804.034

[GRAPHIC] [TIFF OMITTED] T6804.035

[GRAPHIC] [TIFF OMITTED] T6804.036

[GRAPHIC] [TIFF OMITTED] T6804.037

[GRAPHIC] [TIFF OMITTED] T6804.038

[GRAPHIC] [TIFF OMITTED] T6804.039

[GRAPHIC] [TIFF OMITTED] T6804.040

[GRAPHIC] [TIFF OMITTED] T6804.041

[GRAPHIC] [TIFF OMITTED] T6804.042

[GRAPHIC] [TIFF OMITTED] T6804.043

[GRAPHIC] [TIFF OMITTED] T6804.044

[GRAPHIC] [TIFF OMITTED] T6804.045

[GRAPHIC] [TIFF OMITTED] T6804.046

[GRAPHIC] [TIFF OMITTED] T6804.047

[GRAPHIC] [TIFF OMITTED] T6804.048

[GRAPHIC] [TIFF OMITTED] T6804.049

[GRAPHIC] [TIFF OMITTED] T6804.050

[GRAPHIC] [TIFF OMITTED] T6804.051

[GRAPHIC] [TIFF OMITTED] T6804.052

[GRAPHIC] [TIFF OMITTED] T6804.053

[GRAPHIC] [TIFF OMITTED] T6804.054

[GRAPHIC] [TIFF OMITTED] T6804.055

[GRAPHIC] [TIFF OMITTED] T6804.056

[GRAPHIC] [TIFF OMITTED] T6804.057

[GRAPHIC] [TIFF OMITTED] T6804.058

[GRAPHIC] [TIFF OMITTED] T6804.059

[GRAPHIC] [TIFF OMITTED] T6804.060

[GRAPHIC] [TIFF OMITTED] T6804.061

[GRAPHIC] [TIFF OMITTED] T6804.062

[GRAPHIC] [TIFF OMITTED] T6804.063

[GRAPHIC] [TIFF OMITTED] T6804.064

[GRAPHIC] [TIFF OMITTED] T6804.065

[GRAPHIC] [TIFF OMITTED] T6804.066

[GRAPHIC] [TIFF OMITTED] T6804.067

[GRAPHIC] [TIFF OMITTED] T6804.068

[GRAPHIC] [TIFF OMITTED] T6804.069

[GRAPHIC] [TIFF OMITTED] T6804.070

[GRAPHIC] [TIFF OMITTED] T6804.071

[GRAPHIC] [TIFF OMITTED] T6804.072

[GRAPHIC] [TIFF OMITTED] T6804.073

[GRAPHIC] [TIFF OMITTED] T6804.074

[GRAPHIC] [TIFF OMITTED] T6804.075

[GRAPHIC] [TIFF OMITTED] T6804.076

[GRAPHIC] [TIFF OMITTED] T6804.077

[GRAPHIC] [TIFF OMITTED] T6804.078

[GRAPHIC] [TIFF OMITTED] T6804.079

[GRAPHIC] [TIFF OMITTED] T6804.080

[GRAPHIC] [TIFF OMITTED] T6804.081

[GRAPHIC] [TIFF OMITTED] T6804.082

[GRAPHIC] [TIFF OMITTED] T6804.083

[GRAPHIC] [TIFF OMITTED] T6804.084

[GRAPHIC] [TIFF OMITTED] T6804.085

[GRAPHIC] [TIFF OMITTED] T6804.086

[GRAPHIC] [TIFF OMITTED] T6804.087

[GRAPHIC] [TIFF OMITTED] T6804.088

[GRAPHIC] [TIFF OMITTED] T6804.089

[GRAPHIC] [TIFF OMITTED] T6804.090

[GRAPHIC] [TIFF OMITTED] T6804.091

[GRAPHIC] [TIFF OMITTED] T6804.092

[GRAPHIC] [TIFF OMITTED] T6804.093

[GRAPHIC] [TIFF OMITTED] T6804.094

[GRAPHIC] [TIFF OMITTED] T6804.095

[GRAPHIC] [TIFF OMITTED] T6804.096

[GRAPHIC] [TIFF OMITTED] T6804.097

[GRAPHIC] [TIFF OMITTED] T6804.098

[GRAPHIC] [TIFF OMITTED] T6804.099

[GRAPHIC] [TIFF OMITTED] T6804.100

[GRAPHIC] [TIFF OMITTED] T6804.101

[GRAPHIC] [TIFF OMITTED] T6804.102

[GRAPHIC] [TIFF OMITTED] T6804.103

[GRAPHIC] [TIFF OMITTED] T6804.104

[GRAPHIC] [TIFF OMITTED] T6804.105

[GRAPHIC] [TIFF OMITTED] T6804.106

[GRAPHIC] [TIFF OMITTED] T6804.107

[GRAPHIC] [TIFF OMITTED] T6804.108

[GRAPHIC] [TIFF OMITTED] T6804.109

[GRAPHIC] [TIFF OMITTED] T6804.110

[GRAPHIC] [TIFF OMITTED] T6804.111

                                   - 

</pre></body></html>
